<html>
<title> - EMERGENCY MANAGEMENT IN INDIAN COUNTRY: IMPROVING FEMA'S FEDERAL- TRIBAL RELATIONSHIP WITH INDIAN TRIBES</title>
<body><pre>[Senate Hearing 115-47]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 115-47

EMERGENCY MANAGEMENT IN INDIAN COUNTRY: IMPROVING FEMA'S FEDERAL
                 TRIBAL RELATIONSHIP WITH INDIAN TRIBES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 8, 2017

                               __________

         Printed for the use of the Committee on Indian Affairs







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

















                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-164 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 8, 2017.................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Cortez Mastro...............................    31
Statement of Senator Franken.....................................     4
Statement of Senator Hoeven......................................     1
Statement of Senator Lankford....................................    29
Statement of Senator Murkowski...................................     4
Statement of Senator Tester......................................     3
Statement of Senator Udall.......................................     2

                               Witnesses

Amparo, Alex, Assistant Administrator for Recovery, Office of 
  Response and Recovery, Federal Emergency Management Agency, 
  U.S. Department of Homeland Security...........................     5
    Prepared statement...........................................     7
Begaye, Hon. Russell, President, Navajo Nation...................    12
    Prepared statement...........................................    13
Chavarria, Hon. J. Michael, Governor, Pueblo of Santa Clara......    16
    Prepared statement...........................................    18
Desautel, Cody, Natural Resources Director, Confederated Tribes 
  of the Colville Reservation....................................    25
    Prepared statement...........................................    27

                                Appendix

Hansen, Jeff, Director, Office of Emergency Management, Choctaw 
  Nation of Oklahoma, prepared statement.........................    47
Response to written questions submitted to Alex Amparo by:
    Hon. Heidi Heitkamp..........................................    56
    Hon. James Lankford..........................................    57
    Hon. Tom Udall...............................................    49
 
                    EMERGENCY MANAGEMENT IN INDIAN 
                   COUNTRY: IMPROVING FEMA'S FEDERAL-
                 TRIBAL RELATIONSHIP WITH INDIAN TRIBES

                              ----------                              


                      WEDNESDAY, FEBRUARY 8, 2017


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:57 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We will now commence the oversight hearing on 
Emergency Management in Indian Country: Improving FEMA's 
Federal-Tribal Relationship with Indian Tribes.
    The Committee is holding this important hearing on 
emergency management in Indian country. It is timely to begin 
this conversation now.
    The winters can be hazardous in many parts of the country. 
With the spring comes the thaw and often flooding. My home 
State of North Dakota is a good example. In other parts of the 
country, oftentimes it is tornadoes or battling fires.
    Some Indian reservations in North Dakota, most notably the 
Spirit Lake Indian Reservation and the Turtle Mountain Band of 
Chippewa, have received major disaster declarations due to 
spring flooding.
    Tribes around the country experience other types of 
emergencies and disasters. These hard hit communities face a 
long road to recovery. It is incumbent upon the Federal 
Emergency Management Agency, FEMA, to effectively assist in 
that recovery and to get an early start on efforts to reduce 
the impacts of future disaster risks.
    Tribes can seek emergency aid for emergency declarations 
directly from the President, instead of going through the 
States. This is designed to help with timely requests and 
timely assistance to hard hit communities.
    Today, we will hear from the witnesses regarding these 
events and the Federal response, as well as recommendations for 
improving emergency management and the Federal-tribal 
relationship.
    Before we turn to our witnesses, I want to ask Vice 
Chairman Udall if he has an opening statement?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Yes, I do, Mr. Chairman.
    Thank you for calling this oversight hearing so quickly 
into the new Congress. Tribal disaster declaration authority is 
critical to tribal governments across the country.
    I look forward to working with you on this issue and others 
that require deliberate and focused congressional oversight.
    Before I begin my opening remarks, I would like to welcome 
and thank the tribal witnesses, two of whom represent tribes 
from my home State of New Mexico. Both Governor Chavarria of 
the Santa Clara Pueblo and President Begaye of the Navajo 
Nation have shown strong leadership and dedication to tribal 
self determination and self governance, particularly in 
managing natural disasters on their tribal homelands.
    In 2015, 3 million gallons of toxic mine water swept 
downstream into the Navajo Nation's lands following the rupture 
of the Gold King Mine in Colorado. As President Begaye can 
attest, we still do not know the full impacts of this 
environmental disaster that sent polluted water into the Animas 
and San Juan Rivers and through the Navajo Nation.
    The Federal Government response to Gold King has been one 
of the most frustrating things I have seen the Navajo Nation go 
through in my time in Congress. In response, working with a 
bipartisan group of colleagues, we enacted the legislation last 
year to prioritize government reimbursements and to fund and 
authorize long term water quality monitoring.
    Now the Federal Government is denying liability for 
personal damage claims, including for Navajo farmers. This is 
unacceptable to me. We are now again working on new legislation 
to compensate individuals who lost crops and suffered other 
damages from the spills.
    In Santa Clara Pueblo, the Las Conchas fire, one of the 
largest in New Mexico history, destroyed thousands of acres of 
Pueblo's traditional lands. Subsequent severe flooding 
destroyed thousands more. The damage was extensive and 
devastating to the tribe's canyon and scorched the tribe's 
watershed.
    I have seen the aftermath of this disaster firsthand and I 
know the watershed restoration project is a major challenge.
    As a result of this catastrophic wildfire, the Pueblo has 
been forced to make five disaster declarations seeking 
assistance from the Federal Government since 2011. I am proud 
to say that I supported both the Santa Clara Pueblo and Navajo 
Nations' emergency declaration requests and letters to the 
President.
    I look forward to hearing about their experience with 
disaster relief and its impacts. I also look forward to hearing 
the FEMA witnesses describe the recently issued Tribal Pilot 
Guidance and the agency's plans for further implementation of 
the Act.
    Since the enactment of the Tribal Stafford Act in 2013, 
tribes have been able to request emergency or major disaster 
declarations directly from the President and independent of 
States. For many years, tribes were forced to rely on their 
State governor to make these requests on their behalf in order 
to receive Stafford Act assistance, assistance that is vital to 
tribal governments for protecting the health and safety of 
their citizens in the wake of emergency or major disasters.
    I strongly support the parity created by the Tribal 
Stafford Act for tribal and State governments and their 
concurrent ability to seek disaster assistance directly from 
the President.
    I understand that there are tribal State coordination 
issues that could result in inadequate Federal assistance for 
both sovereigns. I look forward to hearing from FEMA and the 
tribal witnesses today about what actions have been taken to 
ensure that tribes and States coordinate closely on decisions 
to request emergency or disaster declarations.
    Federal assistance that supports tribal efforts to respond 
to and recover from an incident that overwhelms tribal 
capabilities must be effective. That is why I signed onto a 
Government Accountability Office request to study tribal 
disaster declaration issues.
    This request includes ways to build and strengthen tribal 
capacity to request major disaster declarations and manage 
associated funding. I expect the result of this study to inform 
further bipartisan discussions among my Committee colleagues on 
how we can work together to assist tribal governments in 
protecting public health, safety and property in the event of a 
major disaster in Indian country.
    Thank you again, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall.
    Are there other opening statements before we turn to the 
witnesses? Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Mr. Chairman, I would just like to 
welcome my constituent and witness, Mr. Cody Desautel from the 
Colville Tribe who is with us here today and thank him for 
coming.
    The Colville Tribe, along with Washington State, has been 
front and center in two years of devastating fires in 2014 and 
2015. We lost 863,000 acres during that time period. In 2015, 
the Tunk Block and North Star fires devastated the Confederated 
Tribe of the Colville Reservation and they lost 259,000 acres 
of commercial timberland which held a billion board feet of 
salable lumber resulting in a 20 percent loss of their general 
operating revenues.
    If there is any tribe in America that can tell you the 
devastating impacts of these natural disasters and fires, it is 
the Colville Reservation.
    Thank you, Mr. Desautel, for being with us and being a 
witness at today's hearing.
    The Chairman. Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Very quickly, thank you, Mr. Chairman.
    The Black Feet Tribe just declared a state of emergency 
because they received five feet of snow last night. To rub salt 
in the wound, they are predicting 50 mile an hour winds 
tomorrow. They will get help from the State.
    I only bring this up because of the timeliness of this 
hearing. They are going to be calling and will be needing help. 
You know what happens with 5 feet of snow and 50 mile an hour 
winds. You also know what happens when it gets above 32 degrees 
and you have that kind of snow melt.
    Thank you all for being here. I especially want to thank 
the tribes.
    The Chairman. Do other Senators have opening comments? 
Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. You gave me an opening. I said we need 
to get to the witnesses.
    Mr. Chairman, I too want to thank you for the timeliness of 
this hearing. Alaska is pretty legendary for the disasters we 
have whether they are earthquakes, floods, fires, mudslides or 
volcanoes. We kind of do it all.
    One of the things I am hoping to have discussion about 
today, I really appreciate the witnesses, is what we are 
calling a slow moving disaster. That is a reality we are facing 
in Alaska as we are seeing communities threatened by storms, 
flooding, coastal erosion, the thaw of our permafrost and the 
impact to our communities that are considering relocation, 
asking for assistance with relocation to protect their families 
and their way of life.
    The infrastructure is being severely damaged whether it is 
the water systems, maybe not water at all, peoples' homes are 
literally falling into the ocean due to coastal erosion and 
more are in danger. There are schools and community buildings 
that are at risk.
    Two of the communities that are facing substantial danger 
right now are the Yupik community of Newtok and Kivalina and 
the Inupiat community up on the Chukchi. Both of these 
communities have recently applied for major disaster 
declarations due to severe storms, flooding and many of the 
issues I mentioned.
    Yet both of these communities were denied because they did 
not fit the contours of the Stafford Act. It is something that 
as we are talking about disasters, I think we need to recognize 
that we have disasters as Senator Tester has just mentioned 
with the weather that is coming and then we have these 
disasters that we see coming at us and perhaps not in an 
immediate forceful way but the force of the looming danger to 
our communities is very, very real.
    I thank you for the opportunity to discuss these important 
issues today and look forward to the comments from today's 
witnesses.
    The Chairman. Do other Senators have comments before we 
turn to the witnesses? Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Chairman Hoeven and Vice 
Chairman Udall for holding this hearing and thank you to all of 
our witnesses for your testimony.
    Before I begin my remarks, I want to take a moment to 
recognize Senator Barrasso for his leadership as chairman and 
Senator Tester for his as well in the last Congress.
    To our new Chair and new Vice Chairman, I look forward to 
continuing to work with you in this new Congress.
    This hearing is an opportunity to shine a light on the very 
important relationship between FEMA and the tribes. I will 
touch on this a bit more in my questions but I am particularly 
interested to hear about FEMA's relationship with the Prairie 
Island Indian community.
    Prairie Island sits on a floodplain in the Mississippi 
River. It is also approximately 600 yards from two nuclear 
reactors and nuclear waste storage facilities. The members of 
the Prairie Island community live with a constant concern of 
radiation exposure.
    In my State, it is very important that FEMA is prepared for 
anything and that it continues to coordinate its emergency 
management plans with Prairie Island.
    Thank you again, Mr. Chairman and Vice Chairman Udall. To 
all the witnesses, I look forward to your testimony.
    The Chairman. Do any other Senators wish comment before we 
proceed to the witnesses?
    Our witnesses today are: Mr. Alex Amparo, Assistant 
Administrator for Recovery, Office of Response and Recovery, 
Federal Emergency Management Agency, U.S. Department of 
Homeland Security; Mr. Milo Booth, National Tribal Affairs 
Advisor, Office of External Affairs, Federal Emergency 
Management Agency, U.S. Department of Homeland Security; the 
Honorable Russell Begaye, President, Navajo Nation, Window 
Rock, Arizona; the Honorable J. Michael Chavarria, Governor, 
Pueblo of Santa Clara, Espanola, New Mexico; and Mr. Cody 
Desautel, Natural Resources Director, Confederated Tribes of 
the Colville Reservation, Nespelem, Washington.
    I want to remind the witnesses that your full written 
testimony will be made a part of the official hearing record. 
If you would, please keep your opening statements to five 
minutes each so that we proceed to questions.
    With that, we will begin with Mr. Amparo.

STATEMENT OF ALEX AMPARO, ASSISTANT ADMINISTRATOR FOR RECOVERY, 
 OFFICE OF RESPONSE AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT 
                         AGENCY, U.S. 
 DEPARTMENT OF HOMELAND SECURITY; ACCOMPANIED BY: MILO BOOTH, 
  NATIONAL TRIBAL AFFAIRS ADVISOR, OFFICE OF EXTERNAL AFFAIRS

    Mr. Amparo. Good afternoon and thank you, Chairman Hoeven, 
Vice Chairman Udall, and members of the Committee.
    It is my pleasure to be here today with our National Tribal 
Advisor, Mr. Milo Booth. Thank you for the opportunity to 
provide you an update on FEMA's efforts since we last testified 
in the summer of 2014. I am excited to talk with you about how 
we have progressed.
    FEMA has a long history of working within our authority to 
fully embrace the nation-to-nation relationship between the 
U.S. Government and federally recognized tribes. Prior to 2013, 
as mentioned, tribes had to seek disaster assistance through 
State declarations.
    Thanks to the authority provided to us by Congress with the 
passage of the Sandy Recovery Improvement Act, tribes now have 
the option to request a declaration from the President 
directly.
    At FEMA, we applaud this change which properly reflects 
tribal sovereignty and we work very hard to further our 
agency's relationship with tribes. I am pleased to share with 
you that FEMA has released the Tribal Declarations Pilot 
Guidance which provides new specifically designed criteria for 
evaluating a tribe's request for a declaration and takes into 
account the unique effects of tribal nations and conditions.
    This guidance was shaped by extensive outreach and 
communication with our tribal partners. This included three 
rounds of tribal consultation comprised of 140 listening 
sessions nationwide. Each round of consultation averaged 500 
participants representing approximately one-third of all 
federally-recognized tribes.
    By the end, we had received more than 2,000 comments which 
we, as an agency carefully reviewed and responded to on our 
website. Most importantly, this input was vital in shaping the 
pilot guidance that has been released.
    In addition to the development of the declaration guidance, 
FEMA has undertaken many actions to build and improve 
relationships with our tribal partners. We have hired a 
national tribal advisor and a tribal specialist at our 
headquarters to help lead this activity.
    We ensured that each of our ten regions has at least one 
tribal liaison to work in building that relationship in the 
field with tribes individually on a regular basis. They help 
coordinate a variety of services that FEMA can provide to 
tribes including technical assistance, grant opportunities, 
exercise training and others. When disaster strikes, we also 
deploy from our cadre of tribal specialists who are on call.
    I tell you from my more than 20 years experience in 
emergency management that effective emergency management at its 
core is based on relationships, understanding mutual capacities 
and the needs of communities. From this foundation, we then 
enhance disaster preparedness through targeted planning, 
training and exercises.
    FEMA's Emergency Management Institute and the Center for 
Domestic Preparedness, two of our main training facilities, 
have developed tribal-specific training. For example, in 2016, 
more than 1,000 tribal emergency managers and first responders 
were trained in these facilities.
    In fact, in just a few weeks at the Center for Domestic 
Preparedness, we will host the second annual tribal nations 
training week which includes multiple courses for training 
first responders, followed by a full scale integrated exercise. 
Last year, over 157 tribal emergency managers and 46 tribal 
nations participated.
    Outside of our training facilities, FEMA is also 
facilitating more large scale exercises to support building 
tribal response capabilities. Last year, FEMA Region 10 in the 
Northwest conducted the Cascadia Rising, a four day earthquake 
and tsunami exercise. Twenty-four tribes in Washington, Oregon 
and Idaho participated in various ways ranging from tsunami 
evacuation drills to full integration in local emergency 
operations centers.
    What I have outlined today illustrates just a part of our 
commitment to federally-recognized tribal governments.
    Thank you for the opportunity to talk to you about the work 
the men and women at FEMA have done. FEMA continues to be 
committed to our partnership and collaboration with tribes.
    There is still much work for us to do. We recognize that 
and remain committed to Indian country and working with this 
Committee and our tribal partners to learn, evolve and help 
build a more resilient America.
    Thank you for your time and I look forward to the questions 
of this Committee.
    [The prepared statement of Mr. Amparo follows:]

    Prepared Statement of Alex Amparo, Assistant Administrator for 
Recovery, Office of Response and Recovery, Federal Emergency Management 
              Agency, U.S. Department of Homeland Security
Introduction
    Good afternoon, Chairman Hoeven, Vice Chairman Udall, and members 
of the Committee. I am Alex Amparo, Assistant Administrator with the 
U.S. Department of Homeland Security's (DHS) Federal Emergency 
Management Agency (FEMA). Thank you for this opportunity to meet with 
you today to discuss ways in which FEMA is improving relationships with 
federally recognized Indian tribes.
    FEMA is committed to our partnership and collaboration with 
federally recognized Indian tribes, and to providing support in their 
preparation for, protection against, mitigation of, response to, and 
recovery from all hazards and disasters. FEMA has a strong tradition of 
engagement with federally recognized Indian tribal governments (tribal 
governments). However, since the passage of the Sandy Recovery 
Improvement Act (SRIA) in 2013, the agency has dedicated additional 
resources to ensuring that tribal governments are fully woven into the 
fabric of our mission.
    Today, I can tell you that FEMA recognizes the unique relationship 
between Indian Country and the Federal Government, and the unique 
conditions that affect Indian Country. We work side-by-side with our 
tribal partners on all aspects of our mission, and we continue to 
posture ourselves to better support our tribal partners at any time. To 
reinforce how we recognize these important relationships, I would like 
to specifically outline FEMA's approach as described in: (1) FEMA's 
Tribal Policy; (2) FEMA's Tribal Consultation Policy; and, (3) FEMA's 
Tribal Declaration Pilot Guidance.
FEMA's Tribal Policy
    The U.S. Government has a unique nation-to-nation relationship with 
federally recognized tribal governments based on the Constitution of 
the United States, treaties, statutes, executive orders, and judicial 
decisions. In 2016, FEMA updated its agency-wide tribal policy. The 
policy outlines a framework for nation-to-nation relations with 
federally recognized tribal governments that recognizes tribal 
sovereignty, self-governance, and the general trust relationship, 
consistent with applicable authorities.
    Key principles of our policy include:

        A.  Recognizing the unique nature of each tribal community and 
        the need to work with all members of tribal communities, FEMA 
        commits to building strong and lasting partnerships with tribal 
        governments to assist in preparing for all threats and hazards, 
        including those unique to tribal communities.

        B.  FEMA will respect and support the unique status of 
        sovereign tribal governments by engaging in meaningful dialogue 
        that will assist tribal communities with any emergency 
        management needs, which fall under the authority of FEMA.

        C.  FEMA acknowledges the inherent sovereignty of tribal 
        governments, the general trust relationship with the federal 
        government, and the nation-to-nation relationship between the 
        U.S. Government and tribal governments as established by the 
        U.S. Constitution, statutes, treaties, court decisions, 
        executive orders, regulations, and policies as the foundation 
        of this policy.

    In updating this policy, FEMA conducted tribal consultation in 
2016, to facilitate tribal feedback on the proposed policy revisions. 
FEMA held 23 separate events nationwide consisting of 18 regional in-
person listening sessions, two national webinars, and three tribal 
association conference presentations during the tribal consultation 
period reaching more than 300 tribal participants. FEMA received more 
than 100 comments in-person and through email, which the agency 
adjudicated to finalize this revised policy.
    For FEMA, this consultation effort on the updated FEMA Tribal 
Policy represented a significant outreach. To accomplish this FEMA 
developed structures throughout the agency to support improving our 
relationships with federally recognized Indian tribal governments. In 
2014, FEMA hired a National Tribal Affairs Advisor, Milo Booth 
(Tsimpshian from the Metlakatla Indian Community in Metlakatla, 
Alaska), to lead the Tribal Partners Branch (TPB) at FEMA headquarters. 
In 2016, Margeau Valteau (Navajo from Window Rock, Arizona) joined the 
TPB as a tribal specialist.
    FEMA tribal liaisons, located in our regional offices, are the 
first resource and point of contact for tribal nations that have 
questions or require technical assistance on agency programs. Following 
the federal recognition of the Pamunkey Indian Tribe in 2016, FEMA 
added a Regional Tribal Liaison to FEMA Region III giving each FEMA 
regional office at least one tribal liaison supporting tribal affairs. 
While these tribal liaisons are a critical piece to our outreach and 
work with tribal governments, it is important to know that all FEMA 
employees who administer our various programs are available to assist 
in delivering programs and resources to Indian Country.
    In addition to Tribal Affairs staffing, FEMA's Emergency Management 
Institute (EMI) provides training to tribal governments and their 
employees to develop their emergency management capabilities. During 
fiscal year 2016, EMI delivered 55 tribal courses to 763 tribal 
attendees and 94 other partners. The tribal curriculum courses are 
delivered by a team of instructors who are selected for their extensive 
experience working with and for tribal governments in emergency 
management and the majority of the instructors are tribal members. In 
addition to providing tribal curriculum courses on the EMI campus in 
Emmitsburg, Maryland, EMI also provides these courses off-site, 
traveling out to Indian Country to reach tribal communities directly. 
EMI currently has planned 21 courses on their 2017 schedule, and will 
likely increase course deliveries as the year progresses.
    FEMA's Center for Domestic Preparedness (CDP) provides training to 
tribal emergency responders. In fiscal year 2016, CDP hosted its first 
Tribal Training Week and trained 157 tribal emergency responders from 
46 tribal nations. During the week, CDP conducted five courses followed 
by an operational Integrated Capstone Event full-scale exercise. In 
2016, 793 tribal first responders completed courses at the CDP, a 245 
percent increase from 2015. This year CDP will host the 2017 Tribal 
Nations Training Week from March 19 to 25.
Exercises
    In addition to providing training, FEMA also coordinates exercises 
with tribal nations to examine and validate capabilities critical to 
their readiness.
    In September 2015, in Great Falls, Montana, more than 100 people 
came together to simulate the response to crude oil train derailment on 
the Blackfeet Nation. FEMA's National Exercise Division coordinated the 
exercise, Montana Operation Safe Delivery, along with Blackfeet Nation, 
the State of Montana, and FEMA Region VIII staff. This is one of three 
in a nationwide series of exercises and the only one to take place on a 
tribal nation. The goal of the exercise was to examine and confirm the 
capabilities needed to respond to, reduce the effects of, mitigate the 
consequences of, and recover from a train derailment involving crude 
oil. The two-day seminar and tabletop exercise brought together all 
seven tribal nations in Montana to participate in and learn from a 
simulated volatile incident.
    In June 2016, FEMA Region X conducted a four-day functional 
earthquake and tsunami exercise, Cascadia Rising. At least 24 tribes in 
Washington, Oregon, and Idaho participated in various ways ranging from 
tsunami evacuation drills to full integration in the local Emergency 
Operations Center. During Cascadia Rising, FEMA exercised its internal 
capacity to respond to multiple direct disaster declarations from 
tribal governments.
    Tribal participation continues to improve our discussions about 
pre-landfall hurricane preparedness as well. For the third year in 
2016, tribal emergency managers participated in FEMA's annual hurricane 
preparedness video teleconference with FEMA leadership and state 
emergency management directors in hurricane-prone areas.
    By both providing staff resources at the national and regional 
level, as well as mission critical training opportunities for tribes, 
FEMA gains a better understanding of the unique circumstances that 
affect tribal governments and identifies creative solutions to these 
unique challenges to better partner with tribal governments and 
emergency management professionals to serve the needs of disaster 
survivors.
FEMA Tribal Consultation Policy
    FEMA's Tribal Consultation Policy governs precisely how we engage 
Indian tribes in meaningful consultation. It was developed and issued 
pursuant to E.O. 13175 of November 6, 2000, Consultation and 
Coordination with Indian Tribal Governments and Presidential 
Memorandum, Tribal Consultation (74 Fed. Reg. 57881) that direct 
agencies to engage in regular and meaningful consultation and 
collaboration with tribal officials in the development of federal 
policies that have tribal implications, and to strengthen the 
government-to-government relationship between the United States and 
Indian tribes.
    The current consultation policy was signed in August 2014, and 
outlines the specific roles and responsibilities for various FEMA 
officials, as well as a detailed outline on how consultation is 
achieved and when it takes place. As a result of this policy, if a 
tribal government was not consulted on an existing policy or action by 
FEMA that they determine affects their community or has tribal 
implications, they may contact the National Tribal Affairs Advisor and 
request to be a consulting party. Much like how the FEMA Tribal Policy 
was updated, we anticipate updating the FEMA Tribal Consultation Policy 
in 2017. We look forward to engaging our tribal partners during the 
comment period to ensure that our update reflects the evolving needs of 
Indian Country.
    Underlying FEMA's work and mission is the whole community approach 
that reinforces that FEMA is only one part of our nation's emergency 
management team. We must leverage all of our collective team resources 
in preparing for, protecting against, responding to, recovering from, 
and mitigating against all hazards. Tribal nations are critical 
components in our whole community, and our commitment to addressing 
their needs is evident in our strategic priority to be survivor-centric 
in mission and program delivery. To further survivor-centric outcomes, 
FEMA leadership adopted a ``cut the red tape'' posture to focus on the 
needs of survivors and to develop and execute programs and policies 
with survivors' perspectives in mind. FEMA recognizes that the 
consistent participation and partnership of tribal governments is vital 
in helping FEMA achieve its mission, so an ongoing dialogue with tribal 
governments and periodic updates of our policies is key to ensuring 
these goals are met.
FEMA's Tribal Declaration Pilot Guidance
    On January 29, 2013, President Obama signed into law the Sandy 
Recovery Improvement Act of 2013 (P.L. 113-2) (SRIA), one of the most 
significant pieces of legislation impacting disaster response and 
recovery since the Post-Katrina Emergency Management Reform Act of 
2006.
    Section 1110 of SRIA, ``Tribal Requests for a Major Disaster or 
Emergency Declaration under the Stafford Act'' authorized federally 
recognized Indian tribal governments (tribal governments) the option to 
request a Stafford Act emergency or major disaster declaration 
independent of the state if they chose to do so. As amended, the 
Stafford Act now better reflects the sovereignty of tribal governments 
and acknowledges FEMA's nation-to-nation relationship with tribal 
governments. This new authority also requires the President to 
``consider the unique conditions that affect the general welfare of 
Indian tribal governments'' when issuing regulations to implement this 
new authority. FEMA developed a phased implementation to ensure 
consideration of the unique needs of tribal governments, which are 
further outlined below.
    In consultation with federally recognized tribal governments, we 
are working thoughtfully and deliberately to develop regulations that 
best reflect the unique situation of tribal governments. Therefore, 
FEMA began implementing the new authority in three phases: (1) use of 
adapted state regulations; (2) implementation of pilot guidance; and 
(3) final rulemaking.
Immediate Use of Regulations
    Immediately after SRIA's enactment, FEMA used existing state 
declaration regulations and criteria to process declaration requests 
from tribal governments. Since the passage of SRIA, there have been 
eight major disasters declared in Indian Country: The Eastern Band of 
Cherokee Indians (North Carolina), the Navajo Nation (Arizona, New 
Mexico, and Utah), the Standing Rock Sioux Tribe (North Dakota and 
South Dakota), the Karuk Tribe (California), the Santa Clara Pueblo 
Tribe (New Mexico), which has received two disaster declarations, the 
Soboba Band of Luiseno Indians (California), and the Oglala Sioux Tribe 
of the Pine Ridge Reservations (South Dakota). Through these 
declarations, Public Assistance, Individual Assistance, and Hazard 
Mitigation Grant Program funding is being provided directly to the 
tribal governments.
    On February 14, 2013, the Eastern Band of Cherokee Indians (EBCI) 
submitted a request for a declaration due to severe weather which 
resulted in flooding, road damage, and landslides in the EBCI Qualla 
Boundary and associated lands. A Major Disaster Declaration was signed 
on March 1, 2013, as the first direct federal to tribe disaster 
declaration under SRIA. The tribe's existing relationship with the 
state of North Carolina and the FEMA Region IV Tribal Liaison was 
strengthened and additional connections with FEMA were created during 
the event. These connections allowed less turmoil for the tribe when 
performing multiple processes and mission support in an environment of 
inexperienced applicants. Lessons learned included clarification and 
guidance regarding policies and procedures on tribal declarations and 
the need for more cultural awareness by FEMA staff.
    In August 2015, the President declared a disaster for the Oglala 
Sioux tribe as a result of severe storms, straight line winds, and 
flooding. As part of the assistance made available through the disaster 
declaration, FEMA and the Oglala Sioux Tribe completed a permanent 
housing construction mission that delivered 196 manufactured homes, and 
repaired an additional 107 homes on the tribe's Pine Ridge Indian 
Reservation. The housing mission was part of the first ever 
Presidential major disaster declaration for Individual Assistance 
granted directly to a tribal nation. The agency hired 25 local tribal 
members to assist in that effort and their roles were vital in the 
success of the mission. In addition, following the disaster, eleven 
tribal members joined the FEMA Reservist program.
    FEMA gathered critical information, best practices, and process 
challenges that have informed the development of the Tribal 
Declarations Pilot Guidance that serves as a comprehensive resource for 
tribal governments on Stafford Act declarations, disaster assistance, 
and related requirements.
Pilot Guidance Development
    FEMA's disaster declaration regulations were developed to evaluate 
states' capacity and their need for supplemental disaster assistance. 
Since these parameters may not be indicative of a tribal nation's 
ability to respond and recover from a disaster, FEMA augmented its 
procedures and criteria to reflect the capacity and needs of tribal 
governments. Before entering the rulemaking process, FEMA intends to 
utilize the pilot period to inform the development of regulations, 
ultimately leading to final regulations which reflect the unique needs 
of tribal governments.
    Tribal participation and input was critical to the development of 
the Tribal Declarations Pilot Guidance. In 2013, FEMA initiated tribal 
consultation to inform the development of the first draft guidance. 
FEMA hosted 26 listening sessions nationwide. FEMA sent written 
correspondence from the FEMA Administrator to all 567 federally 
recognized tribes, and issued advisories to national and regional 
tribal organizations and associations to advise them of the 
consultation. FEMA regional and headquarters leadership presented at 
numerous tribal conferences to provide an overview of the declaration 
process and to solicit feedback.
    In 2014, FEMA conducted 60 listening sessions around the country, 
from Northern Alaska to Montana, Oklahoma to Florida, and to Maine with 
540 participants and 220 tribes represented. Through these listening 
sessions, FEMA gathered more than 1,000 comments on the first draft 
guidance as well as strengthened relationships with tribal governments. 
We learned more about the challenges that tribal communities face, the 
response and recovery capabilities of tribal governments, and their 
understanding of Stafford Act assistance. FEMA regions have been 
extremely proactive in meeting consultation requests of Native Alaskan 
Villages and Indian tribal governments. For instance, FEMA Region X 
senior staff flew to Alaska to consult with the Aleut Communities of 
St. Paul and St. George Islands.
    The second draft of the guidance was posted to the Federal Register 
for a 90-day public comment period that ended in April 2016. In 
addition to posting in the Federal Register, FEMA conducted additional 
consultation over the 90-day period with over 500 tribal officials 
representing 178 federally recognized tribal governments through 
participation in 54 listening sessions nationwide. Nearly 800 comments 
were received and adjudicated. The final Tribal Declarations Pilot 
Guidance is a culmination of all of the interaction and feedback 
through consultation with tribal governments that has occurred over the 
past several years. In total, FEMA received over 2,000 comments and 
conducted 140 listening sessions nationwide.
    The pilot guidance describes the process by which tribal 
governments will use to request Stafford Act declarations, during the 
pilot period, and the criteria FEMA will use to evaluate direct tribal 
declaration requests and make a recommendation to the President. It is 
the culmination of over three years of tribal consultation and 
development of multiple drafts of the guidance. The guidance 
incorporates key changes based on comments FEMA received from tribes. 
These changes include the establishment of a Public Assistance minimum 
damage amount for tribal declarations of $250,000; the addition of 
historic preservation as a demographic factor that may influence the 
impacts of a disaster; expansion of eligibility under the Individuals 
and Households Program to include non-enrolled tribal community 
members, when requested by the tribal government; and modifying and 
adding definitions of terms.
    The extensive consultation FEMA conducted with tribal governments 
in the development of the Tribal Declaration Pilot Guidance was not 
only valuable in informing what the pilot would look like, but also was 
invaluable to improving our understanding of the needs and unique 
characteristics of Indian Country. Additionally, it serves as a good 
example of FEMA's commitment to improving our relationships with tribal 
governments.
Additional Ongoing Initiatives to Support Tribal Governments
    The Federal Insurance and Mitigation Administration (FIMA) supports 
tribal governments by providing direct assistance and support in the 
development of FEMA approved Hazard Mitigation Plans and guidance in 
the development of projects for Hazard Mitigation Assistance (HMA) 
grants. Hazard mitigation planning enables tribal governments to 
identify risks and vulnerabilities associated with natural disasters, 
and develop long-term strategies for protecting people and property 
from future hazard events. FIMA currently uses regional and headquarter 
resources to provide outreach and technical assistance to tribal 
governments in support of these activities. FIMA developed guidance 
documents, outreach materials and provided training opportunities to 
educate tribal governments in developing hazard mitigation plans and 
grant applications, and provided technical assistance to tribal 
governments applying for, and developing HMA Grants for projects 
including development of hazard mitigation plans. FIMA also developed 
resources to assist tribal governments with accessing the eGrants 
System, and applying directly to FEMA for HMA Grants. In the past two 
years a portion of the Pre-Disaster Mitigation Grant funds have been 
set-aside for tribal applications. Tribal nations occupy three of the 
ten non-FEMA positions on the External Stakeholders Working Group that 
was formed to increase engagement and transparency with external (non-
federal) partners.
    In 2016, FIMA conducted tribal consultation on the Tribal 
Mitigation Planning Guidance that guides agency officials in the 
interpretation of regulatory requirements in their review and approval 
of tribal mitigation plans. The underlying regulatory requirements for 
tribal mitigation planning in 44 CFR Part 201 have not changed. The 
goal of this update was to simplify and streamline the document, 
introduce a set of Guiding Principles for Tribal Mitigation Plan 
Review, and to improve alignment with similar state and local guidance 
on mitigation planning.
Conclusion
    The development and update of FEMA's Tribal Policy, Tribal 
Consultation Policy, and Tribal Declaration Pilot Guidance shows just 
part of our commitment to supporting federally recognized tribal 
governments in their preparation for, protection against, mitigation 
of, response to, and recovery from all hazards and disasters. The 
agency continues to seek feedback from our tribal partners and to 
improve how we can engage and work with them.
    We look forward to our continued collaboration to further support 
tribal governments as they build their emergency management 
capabilities. Thank you.

    The Chairman. Thank you, Mr. Amparo.
    It is my understanding your opening remarks will cover both 
yourself and Mr. Booth. Mr. Booth, did you have anything to 
add?
    Mr. Booth. Yes, sir.
    Good afternoon, Chairman Hoeven and Vice Chairman Udall.
    I fully support everything that Mr. Amparo has said. I look 
forward to any questions this Committee may have.
    The Chairman. Thank you.
    Next is the Honorable Russell Begaye.

   STATEMENT OF HON. RUSSELL BEGAYE, PRESIDENT, NAVAJO NATION

    Mr. Begaye. Thank you, Chairman. Also, congratulations for 
taking on this important position for Indian Nations across 
America. Senator Udall, thank you for assuming that 
responsibility as Vice Chair of this important Committee.
    I am Russell Begaye, President of the Navajo Nation. First, 
I want to talk about the Gold Kind Mine spill.
    On August 5, we saw the river that feeds into our Nation 
turn yellow as orange juice. It passed the City of Durango. I 
asked that all of our irrigation systems be cut off to all of 
our farmland on our Nation. The river runs 200 miles on the 
Nation so we immediately cut off the source that would 
contaminate our land, our river and our water.
    That was done and we had 200 Navajo Nation employees and 
volunteers assist in the response but no FEMA employee was on 
the ground with our people that responded.
    On October 2, 2015, we declared an emergency. We made an 
application to FEMA. FEMA denied us 18 days later on October 
20, 2015. In its denial, FEMA said, ``The vast majority of the 
response and recovery efforts for this event fall under the 
authorities of other Federal agencies.''
    I met with then Secretary Vilsack from USDA who was willing 
to help. I met with the Secretary of Health and Human Services. 
They were willing to come and assist us through the HHS 
facilities but both of them were told not to get involved with 
this disaster because they were not the lead agency.
    EPA told these Federal agencies not to assist the Navajo 
Nation because EPA was the lead agency for this. Because of 
that, USDA, HHS and other Federal agencies did not come 
alongside the Navajo Nation to help us.
    That needs to change because anytime disasters occur, all 
Federal agencies should use their resources to help Indian 
tribes like the Navajo Nation in the Gold King Mine spill with 
their disaster. If that had happened, I know that today farmers 
would be farming their land. Now they are reluctant to open up 
the water system because they feel the contaminants are still 
in the river, still on the banks, still in river banks and the 
river beds.
    To this day, a lot of farmers are reluctant to use the 
water source. That is the livelihood of our farmers. Not a 
single farmer to date has been compensated for their loss. We 
are saying look at the policy. Let all Federal agencies be 
released to help in any disaster situation.
    We would also like to say that because of the resources we 
have, we are always stretched thin. I urge Congress to review 
FEMA's funding for tribes so that our people can be better 
served in event of a disaster.
    When you compare this to the BP oil spill, why did FEMA and 
other Federal agencies engage in that situation, yet shy away 
from the Gold King Mine spill? EPA is the only one that came 
and monitored and looked at the river but FEMA was not there 
because we believe they were told to back off because EPA was 
the lead agency.
    Also, on August 3 through August 5, 2016, the evening of 
August 3, I was given a call and told that there was a flood 
coming through the Town of Shiprock. Homes were being washed 
away and vehicles were floating down the river. A huge disaster 
took place in the City of Shiprock.
    Again we submitted an application to FEMA declaring a major 
disaster on August 21, 2016. On October 12, 2016, FEMA denied 
our application because FEMA determined that ``The impact to 
individuals and households from this event was not of such 
severity and magnitude to warrant supplemental Federal disaster 
assistance.''
    We are saying when is it disastrous enough for FEMA to come 
and help? In this case, these homes were washed away and the 
vehicles were hanging off the trees two or three days later.
    We are asking and appealing that more details about the 
impact and factors applied by FEMA for individual assistance be 
clarified. FEMA again denied the appeal we made by simply 
reaffirming their original conclusion.
    FEMA's response was short and general and did not explain 
how they reached the decision. We are saying we need more 
guidance and clarity from FEMA when they deny assistance to 
Indian tribes which encounter disasters.
    Thank you.
    [The prepared statement of Mr. Begaye follows:]

  Prepared Statement of Hon. Russell Begaye, President, Navajo Nation
    Ya'at'eeh Chairman Hoeven, Ranking Member Udall, and Members of the 
Committee. My name is Russell Begaye. I am the elected President of the 
Navajo Nation. Thank you for this opportunity to present testimony to 
discuss the Navajo Nation's experience in working with Federal 
Emergency Management Agency (FEMA). I want to talk about two request 
for declarations that we worked on during my administration: a request 
for emergency declaration relating to the Gold King Mine spill in 
August 2015 and a request for a major disaster declaration concerning 
the Shiprock Flooding that occurred in August of 2016. Unfortunately, 
both of these requests for declarations were denied. We hope to provide 
testimony that will prevent tribes in similar situations from being 
denied federal emergency management resources in times of need.
Gold King Mine, August 2015
    As this Committee is aware, on August 5, 2015, the U.S. 
Environmental Protection Agency (USEPA) and its contractors triggered a 
release of at least three million gallons of toxic mine waste in the 
waters directly upstream of the Navajo Nation. The toxic waste flowed 
into the Animas River and the San Juan River. The San Juan River runs 
approximately 250 miles along the northern border of the Navajo Nation. 
Thirteen Navajo Chapters were affected. Upon notice of the spill, the 
Navajo Nation took action immediately to shut down all intakes into the 
Shiprock, Upper Fruitland-Cambridge and Hogback irrigation canal 
systems. The Navajo Nation Department of Emergency Management (``DEM'') 
identified livestock watering points in the affected area. Our teams 
worked with the BIA to haul water and set up water tanks at these 
watering points. The Navajo Nation DEM provided ranchers and farmers 
information about safe water intake for livestock and for preserving 
crop fields. The Navajo Nation's EPA monitored water quality at eleven 
strategic points along the San Juan River. The Nation's DEM activated 
the Emergency Operations Center (EOC) to coordinate the Nation's 
response to this toxic spill. In all, approximately 200 Navajo Nation 
DEM and Navajo EPA employees and volunteers assisted in the response to 
this disastrous federal EPA-triggered spill. No federal FEMA employees 
were ever on the ground.
    The Nation submitted its FEMA application for an emergency 
application on October 2, 2015. FEMA notified the Nation on October 20, 
2015 that it denied our application for an emergency declaration. 
FEMA's justification for the denial was that the agency determined that 
``the vast majority of the response and recovery efforts for this event 
fall under the authorities of other federal agencies.'' The ``other 
federal agency'' referred to by FEMA was the USEPA, the agency 
responsible for causing the emergency situation, and with a strong 
self-interest in minimizing the response in order to minimize potential 
liability for its actions. Despite this strong conflict of interest, 
the Obama administration designated USEPA as the lead federal agency 
for spill response. We believe the designation of the USEPA as the lead 
agency blocked assistance from other federal agencies including FEMA 
and the U.S. Department of Agriculture (USDA). For example, in 
discussions with FEMA staff, we were informed that FEMA's ``federal 
mission'' does not include livestock and crop fields, and livestock and 
crop fields were the most affected by the toxic spill. FEMA staff also 
informed us that USDA assistance for livestock and crop fields are 
provided under major disaster declarations, not under emergency 
declarations. When we reached out to the USDA we were informed their 
regulations prohibited them from assisting us here because the 
livestock and crop fields were impacted by an emergency, not a major 
disaster. As you know, the USEPA recently declared that they are not 
legally responsible for the spill--just days before the Obama 
administration left office. The bottom line is that the USEPA caused 
this spill, and our Navajo people who have suffered greatly as a result 
of the spill have yet to be compensated for their damages.
    In addition to the above roadblocks, we were also informed that 
FEMA does not generally get involved in emergency assistance when an 
actual or potentially liable party is involved, as was the case with 
the Gold King Mine spill.
    In regards to FEMA and other agencies lack of involvement in the 
Gold King Mine spill, we ask whether FEMA applies this policy 
selectively because it is our understanding that FEMA provided 
assistance during the BP oil spill that occurred in the Gulf of Mexico 
where many federal departments became involved and there were liable 
parties. Why did President Obama's FEMA engage in the BP-caused Gulf of 
Mexico spill, yet shy away from the USEPA-caused Gold King Mine spill? 
We ask the Committee to explore the difference in assistance and 
response between these two cases.
    FEMA's denial of an emergency declaration also effectively denied 
the Nation assistance for its people through counseling services. We 
received many requests from the local chapters and individuals for 
counseling services. We would have applied for counseling services 
assistance from the U.S. Department of Health and Human Services (DHHS) 
for those affected by the spill as well as responders to the spill. 
However, when we requested this assistance from DHHS, it informed us 
that it can only provide this service if an emergency declaration is 
made and approved by FEMA. We request this policy be reviewed--our 
people should not be denied access to federal counseling services that 
would normally have been available under different political 
circumstances.
    Our Navajo DEM is made up of only 3 employees. When a disaster 
occurs, they must take the lead in organizing the response. This is a 
lot of work and yet at the same time, they have to make assessments, 
develop all the documentation, and submit all the required documents to 
FEMA. As such, our resources are stretched thin. Comparable State 
emergency departments are made up of 50 or more people. I imagine that 
a smaller Tribe than the Navajo Nation, who has limited or no resources 
will have even greater difficulty in getting any type of declaration 
approved by FEMA. I therefore urge Congress to review FEMA funding for 
Tribes so that our people can be better served in the event of a 
disaster. Our emergency response teams should have the same resources 
as State teams, and Congress can help ensure this parity.
    Because the USEPA caused this spill, it effectively prevented FEMA 
from taking the lead and engaging with the Navajo Nation. The USEPA 
then denied our claims a year-and-a-half after the spill and only days 
before the Obama administration left office. I find it appalling that a 
federal agency can cause a spill, testify before this Committee that it 
takes full responsibility, then prevent FEMA from engaging, then 
finally deny liability. This should never be allowed to happen again.
Shiprock Flooding, August 2016
    From August 3-5, 2016, flooding occurred in northwest Shiprock, New 
Mexico on the Navajo reservation. Three hours after the rainstorm 
reached its peak, residents in the affected area began calling public 
rescue agencies who responded immediately. Individuals and families 
were evacuated to the Shiprock Chapter (``Chapter'') House. Red Cross 
had supplies and bedding set up in the Chapter House. The local 
emergency response team, entitled the Shiprock ALERT Team, set up a 
command post in the Chapter House. DEM provided technical assistance to 
the Shiprock ALERT Team. In the early morning of August 6th, breakers 
and water lines were shut down; roads were cleared of flood debris so 
that residents and rescuers could travel in and out of the area. A 
loader and bar screen was used to clear flood debris from the 
demolished houses. Trash bins were donated so that debris could be 
quickly removed, thus reducing risks to public health. Donations were 
being continuously received at the Chapter and distributed to affected 
residents. Temporary housing was found for those whose homes had washed 
away. Public meetings were held at the Chapter House to keep the 
community regularly informed. The Nation's Division of Health staff 
assisted affected residents by providing them with safety and health 
information and monitoring them for days.
    The primary area where flooding occurred was approximately three 
square miles. Twenty-seven homes were affected and all were surveyed 
for damage by DEM and FEMA. Ten were deemed to be affected but 
habitable, two had minor damage and five sustained major damage. Ten 
homes were destroyed. Eleven vehicles were destroyed and five of these 
washed away. The damage to the affected families was documented and 
estimated at $967,516. Five months after the flooding seven families 
have been re-settled, nine families continue living in temporary homes, 
three have been provided trailers by the Navajo Nation, one person is 
homeless, one family purchased their own home, and one family is 
renovating their home to make it habitable.
    The Navajo Nation submitted its FEMA major disaster declaration 
application on September 21, 2016. On October 12, 2016, FEMA denied our 
application because FEMA ``determined that the impact to individuals 
and households from this event was not of such severity and magnitude 
as to warrant supplemental federal disaster assistance.'' The Nation 
appealed FEMA's denial on November 9, 2016. Our appeal emphasized the 
individual assistance factors applied by FEMA pursuant to 44 CFR 
206.48(b): (1) concentration of damages, (2) trauma, (3) special 
populations, (4) voluntary agency assistance, and (5) insurance. \1\ On 
November 28, 2016, FEMA notified the Nation that its appeal was denied. 
The denial simply reaffirmed FEMA's original conclusion that the 
``impact to individuals and households from this event is not of the 
severity and magnitude as to warrant supplemental federal assistance.''
---------------------------------------------------------------------------
    \1\ The 6th factor applies primarily to states.
---------------------------------------------------------------------------
    The original FEMA denial stated only that the impact to the 
individuals and families was not severe enough and the magnitude was 
not sufficient enough. In our appeal, we gave more details about the 
impact experienced by the affected individuals and families in 
accordance with the factors applied by FEMA for individual assistance. 
Nonetheless, FEMA denied our appeal on the same basis of insufficient 
severity and magnitude.
    The Nation requests clearer guidance from FEMA to Indian tribes who 
apply for individual assistance. Because FEMA did not explain how and 
why it reached the conclusion that it did, we can only speculate about 
the basis of their conclusion with questions such as the following. Was 
the 3 square-mile area not of sufficient magnitude? Given the census 
population numbers we included for the Shiprock community, were 21 
families not sufficient to warrant a declaration? Were the estimated 
total damage costs of $967,516 not severe enough or of sufficient 
magnitude? The Nation does not know what thresholds apply under each 
factor that FEMA considers in deciding whether a major disaster event 
qualifies for federal assistance. In addition, the Nation wonders 
whether the scope of the disaster response might have worked against a 
declaration decision because the locally-based Shiprock ALERT Team 
functioned as the primary responder, not the Nation's DEM. Shiprock 
ALERT Team was right there in the community and could respond 
immediately and coordinate services for rescue, repair, and aid. 
Because the affected area was a residential area, the flooding did not 
impact any government operations or facilities. This experience with 
unclear guidance from FEMA about its individual assistance 
determinations leads us to request that FEMA provide clear guidance for 
Indian tribes with respect to applications for individual assistance.
    The Nation also recommends that FEMA consider a class of disaster 
relief that would allow for assistance for individuals who have 
disaster damages that are localized in scope even if tribal government 
functions and facilities are not affected. Given the limited resources 
of all types for Indian tribes, even a localized disaster event will 
greatly challenge the internal resources of most Indian tribes.
Other Declarations
    Prior to my Presidency, there were two other Navajo Nation 
declarations approved by FEMA. One declaration was for a freeze that 
occurred across the Navajo Nation around December 2012 to January 2013. 
The Nation had filed a request for a major disaster declaration and 
FEMA approved the declaration. This declaration was filed shortly after 
the Stafford Act was changed to allow Indian tribes to file 
declarations for themselves rather than go through the state. Navajo 
was one of the first few tribes to file pursuant to this new law.
    The other declaration was made as a result of severe storms, 
flooding and mudslides that occurred in New Mexico from July through 
September of 2013, but this assistance did not come from Navajo's own 
declaration. Initially, from our understanding, Navajo was denied 
assistance from FEMA because the cumulative amount of Navajo's 
documented damages did not exceed the $1 million threshold. In the 
alternative, the Nation filed as a subgrantee of the State of New 
Mexico under their declaration since their cumulative damages would 
then exceed the $1 million threshold. The tribal threshold has since 
been reduced to $250,000, which now makes it easier for tribes to 
receive assistance.
    If you need further information on these declarations, we can 
provide it upon your request.
Conclusion
    FEMA recently published a Tribal Declarations Pilot Guidance dated 
January 2017. We provided comments to the draft of this guidance. 
However, at this time, we are working to see if any of our comments 
were incorporated into that Guidance. When the flooding and the Gold 
King Mine spill occurred, we did not have this guidance and we had to 
rely on specialized expertise and navigate the complex maze of federal 
regulations. Since it is in the pilot phase, we shall see how this will 
help us out in the future.
    The Nation places a spotlight on the difficulties Indian tribes 
confront when attempting to apply for emergency declaration assistance, 
especially when federal guidelines and regulations require criteria 
that do not apply to an emergency event such as the toxic spill that 
contaminated the San Juan River and yet caused damage to vitally 
important tribal resources. As a result, many of the individual farmers 
and ranchers affected by the toxic spill remain uncompensated almost 
two years after the event. The fact that farmers have not been 
compensated for their EPA-caused losses and the fact that FEMA was 
prevented from engaging is absolutely unacceptable. I commend this 
Committee for focusing on tribes' difficulties in obtaining disaster 
assistance from the Federal Government.

    The Chairman. Thank you, President Begaye.
    We will now turn to Governor Chavarria.

  STATEMENT OF HON. J. MICHAEL CHAVARRIA, GOVERNOR, PUEBLO OF 
                          SANTA CLARA

    Mr. Chavarria. [Greeting in native tongue.]
    Out of respect, Mr. Chairman, Vice Chairman and members of 
the Committee, my name is Michael Chavarria, Governor for Santa 
Clara Pueblo.
    In my native Santa Clara, I just asked the Chairman, out of 
respect, to speak on behalf of my Pueblo in Santa Clara and for 
an invitation to testify this afternoon before this Committee.
    In the last 20 years, the Santa Clara Pueblo has faced and 
overcome numerous natural disasters. In 2011, as Vice Chairman, 
I mentioned we were devastated with the Las Conchas fire.
    The fire caused damage to our forests and lands which is 
our pharmacy. The Santa Clara Creek is a biological classroom. 
Most of our Santa Clara Canyon, which is our spiritual 
sanctuary, has a 25.9 mile burn scar across our traditional 
lands. The burn scar destabilized the land and left our 
community vulnerable to flashfloods and mudslides.
    While FEMA and other Federal agencies have undertaken 
significant efforts to protect our people and our lands, that 
threat still remains. Our lands remain unstable and our prone 
to the imminent threat of flooding.
    However, we are thankful to those Federal agencies for 
coming to our aid and continue to partner for the resilience of 
flooding for Santa Clara Pueblo.
    As mentioned, we had five presidential disaster 
declarations. We have two or three as a sub-grantee to the 
State of New Mexico and as Stafford amendments were made, we 
have two direct disaster declarations for Santa Clara Pueblo.
    There are serious financial considerations in choosing 
whether to proceed as a sub-grantee or as a direct grantee. As 
a sub-grantee to the State, we are responsible for 12.5 percent 
of that cost. However as a direct grantee, we are obligated to 
meet 25 percent of that cost while the Federal Government 
through FEMA covers the remaining 75 percent.
    With five presidential disaster declarations, Santa Clara 
has been responsible for tens of millions of dollars in cost 
sharing matches which has placed a tremendous burden on our 
already limited tribal budgets and has taken away from other 
social programs for our elders and children.
    One of the things I have recommended is adjusting the cost 
share thresholds to be more responsive to the financial needs 
of the tribe. Santa Clara took that opportunity by writing to 
Mr. Tony Robinson, Regional Administrator on September 26, 2014 
pursuant to 44 CFR Subsection 206.47 about a reduction in the 
local cost share. ``Yes, this request could be authorized but 
must be approved by the President.''
    With this, we are approved at a 10 percent cost share 
reduction. This is very vital because we are not wealthy 
financially. However, we are wealthy with our traditions, our 
culture and our religion. An important thing is our Native 
language which is the glue that holds together our culture and 
traditions.
    Because the devastation was so huge in November 2013, Santa 
Clara became the first tribal government to request and receive 
disaster recovery assistance under the National Disaster 
Recovery Framework, the NDRF.
    The NDRF is used to create a comprehensive federally-led 
strategy to the build the community's resiliency to future 
flooding. The National Disaster Recovery Framework incorporates 
a recovery support strategy which enables the tribes to 
maximize their resources by enabling the tribes to coordinate 
with Federal, State and non-governmental organizations through 
a systematic approach that is mutually beneficial. Most 
importantly, it respects our sovereignty.
    I have submitted a written statement for this hearing. It 
contains the background of the fire, the impacts and continued 
threats to our existence as Santa Clara Pueblo. Most important 
is a graph that was provided by the Corps of Engineers that 
shows on any given day, we face a 100-year flood event.
    Pre-fire, it was 5,000 cubic feet per second. Because no 
more vegetation was there, we are now prone to a 21,000 cubic 
feet per second flood event within our canyon because of the 
altered hydrology.
    This is very important. Five minutes is not really enough 
time to go into full detail about our challenges. However, I 
would like to recommend that we support Stafford amendments 
which promote self determination and better reflect the unique 
government-to-government relationship that exists between FEMA 
and tribal nations.
    Second, we recommend the creation of a BIA emergency 
response fund that will be equipped to provide tribes with 
emergency funding to address short and long term disaster 
recovery and prevention efforts.
    Third, we also recommend additional funding for effective 
fire prevention treatment such as fuel breaks, hazardous fuel 
reduction projects which could then provide our lands with 
greater protection and reduce the need for extensive costly 
fire suppression efforts.
    Fourth, we support the expansion of land management 
programs such as the Tribal Forest Protection Act that empowers 
tribal governments to act as caretakers of those Federal lands 
adjacent to our reservation and partnering the tribes to 
protect the trust resources is very vital.
    Finally, we support the FEMA Tribal Declaration Pilot 
Guidance as a valuable addition to the Federal toolbox. It 
reflects the diverse voices of Indian country including our own 
and is responsive to our concerns.
    Thank you, Mr. Chairman and members of the Committee. I now 
stand for any questions you may have at this time.
    [The prepared statement of Mr. Chavarria follows:]

 Prepared Statement of Hon. J. Michael Chavarria, Governor, Pueblo of 
                              Santa Clara
                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              


    The Chairman. Thank you, Governor Chavarria.
    Now we will turn to Director Desautel.

         STATEMENT OF CODY DESAUTEL, NATURAL RESOURCES 
         DIRECTOR, CONFEDERATED TRIBES OF THE COLVILLE 
                          RESERVATION

    Mr. Desautel. Good afternoon, Chairman Hoeven, Vice 
Chairman Udall, and members of the Committee. I appreciate the 
opportunity to testify today.
    My name is Cody Desautel and I am the Natural Resources 
Director for the Confederated Tribes of the Colville 
Reservation. The tribe appreciates the opportunity and would 
like to share our important issues and experiences working with 
FEMA during disasters.
    The Colville Reservation covers approximately 1.4 million 
acres. The reservation is slightly larger than the State of 
Delaware by area. About half of the tribe's members live on our 
reservation.
    Of the 1.4 million acres, more than 900,000 are forested 
and of those 900,000 forested acres, over 660,000 our part of 
our commercial cut base which we rely on for timber production 
and revenue that supports our tribal government.
    I am going to address three issues. The first will be the 
catastrophic fires we had in 2014 and 2015 and later a 
windstorm event we had in 2012.
    The catastrophic fires are explained in my written 
statement. In eastern Washington, we saw the worse fire season 
in the State's history in 2014 and 2015. In 2014, four fires 
collectively referred to as the Carlton Complex, burned 256,000 
acres in communities near the Colville Reservation.
    While damage to the Colville Reservation was comparatively 
small and limited to our inhabited rangeland, our tribal 
personnel assisted local governments in the suppression and 
recovery efforts. The Carlton Complex fire burned more than 300 
homes and other structures and affected life and property 
throughout two watersheds.
    In 2015, the Colville Tribes endured the most destructive 
fire on an Indian reservation in recorded history. The North 
Star and Okanogan Complex fires collectively burned more than 
255,000 acres on the Colville Reservation, nearly 20 percent of 
the total land base, and approximately one-fourth of the 
commercial timber land.
    Approximately 800 million board feet of timber we think was 
burned but further inventory work is ongoing to fully assess 
the damage of that fire season.
    The 2015 fires statewide resulted in the deaths of three 
firefighters, a non-firefighting fatality and 21 injuries, and 
ultimately burned more than 1 million acres in the State. The 
Okanogan Complex fire surpassed the 2014 Carlton Complex fire 
as the largest fire in Washington State history.
    2015 marked the first year ever that Washington State 
officials asked residents to volunteer to assist in fighting 
wildfires.
    For both the 2014 Carlton Complex and the 2015 fires, the 
President issued PDDs that authorized public assistance for 
both the Colville Tribes and the affected local governments. In 
both cases, however, FEMA denied Governor Inslee's requests for 
assistance for homeowners under FEMA's Individual Assistance 
Program.
    The tribe then submitted its own separate request for 
Individual Assistance for on-reservation residents. FEMA denied 
that request as well.
    The second point is catastrophic wildfires should be 
treated differently by FEMA. Neither FEMA nor the Stafford Act 
adequately addresses the full extent of damage caused by 
massive, catastrophic wildfires, especially for Indian tribes.
    In the next few years to Colville Tribe's single largest 
task will be replanting trees burned during the 2015 wildfire 
season. The only dedicated funding source for replanting is BIA 
funds which are somewhat limited, as I am sure you know. The 
BIA has a statutory obligation to replant Indian forests but 
its annual average reforestation budget is approximately $3.4 
million. In comparison, the tribe's request for rehabilitation 
funding was roughly $20 million.
    This would cover planting of less than 11,000 acres for all 
tribes nationwide. I think just in 2015, there was half a 
million acres of Indian forests burned.
    For catastrophic fire events, FEMA should provide immediate 
assistance for fire suppression, stabilization and landscape 
rehabilitation. For Indian forestland, FEMA should also provide 
resources for replanting in light of the United States' trust 
obligations to reforest Indian forestland.
    One approach would be to create a separate disaster 
declaration category for catastrophic fire events. This concept 
was included in Title IX of the House-passed Resilient Federal 
Forests Act of 2015.
    As a third point, FEMA should re-examine its criteria to 
ensure rural tribal communities are treated fairly. One of 
FEMA's criteria for evaluating requests for individual 
assistance is concentration of damages.
    FEMA has never explained why it denied the Washington State 
and Colville Tribes' requests for individual assistance for the 
2014 or 2015 fires. The tribes believe the fact that much of 
the damage was widespread over a large geographic area was the 
primary reason for the denial.
    Rural areas like the Colville Reservation are inherently 
prone to a lower concentration of damages based on population 
density but often suffer more damage than metropolitan areas. 
This was the case with the affected residents of the Colville 
Reservation, many of whom lost access to health care and other 
essentials due to extended road closures.
    Other tribal members lost their livelihoods when cattle and 
rangeland burned, which are damages that have persisted and 
will continue long after the fires were extinguished.
    The new FEMA Pilot Guidance for Tribal Disaster Declaration 
did not affect how FEMA applies concentration of damages to 
tribes. We believe FEMA should amend this guidance to issue new 
guidance that makes clear that rural Indian tribes will not be 
denied assistance based on concentration of damages.
    This concludes my testimony and I would be happy to answer 
any questions the Committee may have.
    [The prepared statement of Mr. Desautel follows:]

   Prepared Statement of Cody Desautel, Natural Resources Director, 
            Confederated Tribes of the Colville Reservation
    Good afternoon, Chairman Hoeven, Vice Chairman Udall, and members 
of the Committee. My name is Cody Desautel and I am the Natural 
Resources Director for the Confederated Tribes of the Colville 
Reservation (``Colville Tribes'' or the ``CCT''). I appreciate the 
opportunity to testify on improving FEMA's relationship with Indian 
tribes.
    My testimony today will focus on three issues: (1) the impact of 
three major disasters on the Colville Reservation during the past five 
years, including two massive wildfires; (2) why catastrophic wildfires 
should be treated differently by FEMA and under the Stafford Act; and 
(3) the need for FEMA to re-examine its criteria for evaluating 
disaster declarations for rural tribal communities.
Background on the Colville Tribes and Major Disasters on the Colville 
        Reservation
    Although now considered a single Indian tribe, the Confederated 
Tribes of the Colville Reservation is a confederation of twelve 
aboriginal tribes and bands from across eastern Washington State. The 
present-day Colville Reservation is in north-central Washington State 
and was established by Executive Order in 1872. The Colville 
Reservation covers approximately 1.4 million acres and its boundaries 
include parts of Okanogan and Ferry counties. The CCT has more than 
9,400 enrolled members, making it one of the largest Indian tribes in 
the Pacific Northwest, and the second largest in the State of 
Washington. About half of the CCT's members live on or near the 
Colville Reservation. Of the 1.4 million acres that comprise the 
Colville Reservation, 922,240 acres are forested land, and 660,000 of 
the forested acres are commercial timber land.
    The Colville Tribes has endured three major disasters during the 
past five years. The first occurred in July 2012, when a major wind 
storm and flash flood toppled trees, destroyed power lines and tribal 
infrastructure, and blocked or damaged roads over an area of several 
hundred thousand acres. Although damage occurred reservation-wide, the 
community of Keller was most heavily affected by the storm. Homes were 
lost or damaged, and residents with undamaged homes were left without 
power for extended periods. The community water infrastructure was 
damaged by uprooted trees, and rural residents outside of the Keller 
community were without power for even longer. The Keller disaster 
occurred before the tribal amendments to the Stafford Act became law 
and the CCT worked with the State of Washington to ensure that the 
state included damage to the Colville Reservation as part of its 
request for a Presidential Disaster Declaration (PDD). President Obama 
issued the PDD, which enabled the Colville Tribes and other affected 
jurisdictions to obtain assistance through FEMA's Public Assistance 
program.
    Two years later, in 2014, four fires, collectively referred to as 
the ``Carlton Complex'' fires, burned 256,108 acres in communities near 
the Colville Reservation. While the Colville Reservation damage was 
comparatively small and limited to uninhabited rangeland, CCT personnel 
assisted local governments in the suppression and recovery efforts. The 
Carlton Complex fire burned more than 300 homes and other structures 
and affected life and property throughout two watersheds.
    Most recently, in 2015, the Colville Tribes endured the most 
destructive fire on an Indian reservation in recorded history. The 
North Star and Okanogan Complex fires collectively burned more than 
255,000 acres on the Colville Reservation--nearly 20 percent of the 
total land base. Approximately one-fourth of the commercial timber land 
on the Reservation burned or was affected, which included 788 million 
board feet of timber. These two fires were part of the worst wildfire 
season in Washington state history that saw more than 121 fires ignited 
during a four-day period from August 10-14, 2015.
    The 2015 fires statewide resulted in the deaths of three 
firefighters, a non-firefighting fatality, 21 injuries, and ultimately 
burned more than 1 million acres. The Okanogan Complex fire surpassed 
the 2014 Carlton Complex fire as the largest fire in Washington state 
history. 2015 marked the first year ever that Washington state 
officials asked residents to volunteer to assist in fighting wildfires.
    For both the 2014 Carlton Complex and the 2015 fires, Washington 
State Governor Inslee requested, and President Obama issued, PDDs that 
authorized Public Assistance for both the Colville Tribes and the 
affected local governments. In both cases, however, FEMA denied the 
Governor's requests for assistance for homeowners under FEMA's 
Individual Assistance program. Following FEMA's denial of the 
Governor's Individual Assistance request for the 2015 fires, the 
Colville Tribes submitted its own separate request for Individual 
Assistance for on-reservation residents. FEMA denied that request as 
well.
Catastrophic Wildfires Should be Treated Differently by FEMA and in the 
        Stafford Act
    Currently, neither FEMA nor the Stafford Act adequately addresses 
the full extent of damage caused by massive, catastrophic wildfires. 
While FEMA did establish an ``Erosion Threat Assessment Reduction 
Team'' to assess post-fire rehabilitation needs, the funding for 
carrying out most of those activities must be secured from other 
sources. Funding for immediate landscape stabilization can be charged 
to the Department of the Interior's Wildland Fire Management program, 
but longer term Burn Area Rehabilitation funding is extremely limited 
for Indian tribes nationwide, as are funds for replanting.
    In the next few years, the single biggest task will be replanting 
trees burned during the 2015 wildfire season. Although the Colville 
Tribes has and continues to seek alternative funding sources, the only 
dedicated federal source of replanting funds for Indian forests are BIA 
forestry funds. The BIA has a statutory obligation to replant Indian 
forest land but its average annual reforestation budget is 
approximately $3.2 million for tribes nationwide.
    The BIA's entire $3.2 million budget would cover planting of less 
than 11,000 acres. Relying only on BIA funds would mean the hundreds of 
thousands of acres of forest land on the Colville Reservation may not 
be replanted for decades, if ever. In contrast to the obstacles the CCT 
must endure given the limitations of the BIA's reforestation budget, 
the U.S. Forest Service is already implementing its plans to replant 
the 9,095 acres of national forest land affected by the 2014 and 2015 
fires.
    The CCT has traditionally relied on forest products and stumpage as 
primary sources of revenue to fund tribal government programs. The 
long-term damage to the CCT's economy and government will be felt for 
decades unless replanting can take place soon. The loss of forest lands 
will also have a lasting cultural impact on the Colville Tribes and its 
members. The fires devastated big game populations, cultural plants, 
and culturally significant sites reservation-wide.
    FEMA programs do not address the full extent of the damage caused 
by catastrophic fire events, including fires on non-Indian federal 
lands. FEMA should provide immediate assistance for fire suppression, 
stabilization, and landscape rehabilitation. For Indian forest land, 
FEMA should also provide assistance for replanting in light of the 
United States' statutory obligations to reforest Indian forest land.
    One approach would be to create a separate disaster declaration 
category for catastrophic fire events, like what was included in Title 
IX of the House-passed Resilient Federal Forests Act of 2015 (H.R. 
2647). That provision would have authorized the President to declare a 
major disaster for wildfires on federal lands (including Indian trust 
lands) and authorized FEMA to aid the Departments of the Interior and 
Agriculture for extraordinary wildfire suppression costs that exceed 
the 10-year average. The scope and severity of fire events continues to 
grow and this type of solution is needed to ensure that both Indian and 
non-Indian communities can fully recover from massive fire events.
FEMA Should Re-examine its Criteria to Ensure Rural Tribal Communities 
        are Treated Fairly
    One of FEMA's criteria for evaluating requests for Individual 
Assistance is concentrations of damages. As stated in FEMA regulations, 
``High concentrations of damages generally indicate a greater need for 
Federal assistance than widespread and scattered damages throughout a 
State.'' 44 C.F.R.  206.48(b)(1). The FEMA pilot guidance for tribal 
disaster declarations did not modify this criterion or otherwise change 
how FEMA applies it to tribes.
    FEMA has never publicly articulated the basis for its denials of 
the Washington state and Colville Tribes' requests for Individual 
Assistance for the 2014 and 2015 fires. Based on discussions with local 
officials and our congressional delegation, however, we believe that 
the fact that much of the damage was widespread over a large geographic 
area was the primary reason for FEMA's denials.
    Rural areas like the Colville Reservation are inherently prone to a 
lower concentration of damages based on population density. However, 
the economic, social, agricultural, and cultural damages from major 
disasters often impact rural communities much more severely than in 
metropolitan areas. This was the case with the affected residents of 
the Colville Reservation, many of whom lost access to health care and 
other essentials due to extended road closures. Other tribal members 
lost their livelihoods when cattle and rangeland burned, which are 
damages that have persisted and will continue long after the fires were 
extinguished.
    In the 114th Congress, members of the Washington state 
congressional delegation introduced the ``Individual Assistance 
Improvement Act of 2015'' (H.R. 4243), which would have waived the 
concentration of damages criterion for rural communities in certain 
instances. Until a permanent legislative or administrative fix can be 
made, FEMA should amend existing guidance or issue new guidance that 
makes clear that rural Indian tribes will not be denied assistance 
based on concentration of damages.

    The Chairman. Thank you, Director Desautel.
    With that, we will turn to questions. The Chairman and Vice 
Chairman will save their questions until the end, at least for 
this hearing. That could change from hearing to hearing. That 
is how we will start. We will start with Senator Lankford.

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Thank you very much.
    I appreciate all of you being here and appreciate your 
testimony and the conversation on this. This is a pilot program 
that has very far reaching implications. As this dais has heard 
me say before, Oklahoma is a little different in the way we 
handle reservation and non-reservation areas.
    As a non-reservation State, there is a tremendous amount of 
area that is historic tribal area where there are no businesses 
in trust or lands in trust or tribal headquarters that are 
there. My question really relates to this program and how this 
would work and function.
    It is my understanding that for a tribe to make a disaster 
declaration, it is $250,000 worth of damage. For a State to 
make a declaration, it is $1 million. Is that correct?
    Mr. Amparo. Senator, you are referring to what is termed as 
a ``minimum damage amount.'' For States, it is a $1 million 
damage amount. For tribes, it is $250,000 but that is not a 
threshold as if you have $250,000, there is a guarantee for a 
declaration.
    In the pilot, this is part of the comments we have received 
in our listening sessions, the $1 million for tribes was just 
too high.
    Senator Lankford. So how do you deal with areas of overlap? 
For instance, we have many communities where we may have a city 
and county that would have issues; you would also have tribal 
areas within that same historic area. What accounts for overlap 
in an area like Oklahoma where we are a non-reservation 
location?
    Mr. Amparo. There is coordination with Albert Ashwood, the 
State Director of Emergency Management in Oklahoma, close 
coordination with our regional office, Region 6 out of Denton, 
Texas, with the tribes and the State, the tribes and the State 
being the eligible entities to be grantees.
    There are situations where we have seen even tribes that 
did not have land but had infrastructure that was damaged that 
worked closely with the State on a declaration request. I would 
tell you the way that overlap is adjudicated is through 
coordination between the State and our regional office.
    Senator Lankford. Let me ask about the pilot, the 
functioning of it.
    We are approaching the end of it in many ways as we look on 
the horizon at 2020. Is that the end of the pilot program?
    Mr. Amparo. We do not have an official end to the pilot 
program. It has taken us several years of consultation with 
tribes to develop the pilot guidance. It is now in effect. It 
will be in effect for at least two years at which time we would 
evaluate through data collection what our findings are and what 
future changes we would make to guidance.
    Senator Lankford. What metrics are you using at this point 
to be able to determine that? As you say you are putting it out 
to them; you have two years to evaluate it. Do you already have 
those metrics in place to see what you want to try to achieve?
    Mr. Amparo. I think Senator Murkowski mentioned a couple of 
the issues we have with the two declarations requests that came 
through. There were different types of events. They were unique 
in the way they are.
    We continue to hear comments from Indian country on things 
that may not have been contemplated where we have put the 
guidance out. We are open to those in this pilot period to 
account for them.
    I think just a sheer number of how many declarations were 
granted versus ones that were not, it is not our measure. We 
would like to be able to is compare a period of time under this 
pilot guidance to a period of time that we were not under this 
pilot guidance and look to see what the findings are and be 
open to what the data tells us.
    Senator Lankford. Mr. President?
    Mr. Begaye. Thank you, Senator.
    We are asking this Committee to make that disaster balance 
a permanent designation of $250,000 because it really is 
difficult for communities and rural areas to reach that $1 
million threshold that we had to abide by earlier.
    Now with this new guidance, we are asking the Committee to 
keep that at $250,000 as the amendment for damages.
    Senator Lankford. Let me ask a question as well. Is there 
any properties, locations or structures that are excluded from 
a disaster declaration? If a tribe says these are sacred lands 
and here is a certain building, there is a house of worship, or 
there is a meeting place or a business, is there any type of 
structure that FEMA would say we do not recognize and will not 
allot funds to that?
    Mr. Amparo. No, sir. Quite the contrary, we work very 
closely with the tribes. We have environmental and historic 
preservation experts. We also look to the tribes to provide us 
some of the cultural experts on tribal lands.
    In the declarations we have worked specifically with the 
Oglala Sioux Tribe in a large disaster, our reliance on tribal 
expertise is immense. That is the direction in which we are 
moving.
    Senator Lankford. Just clarification, sacred lands, houses 
of worship, meeting spots, all of those would be included?
    Mr. Amparo. Yes, sir, as tribal infrastructure.
    Senator Lankford. Thank you.
    The Chairman. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair.
    Mr. Amparo and Mr. Booth, thank you very much. Thank you 
all for joining us. I have a specific question that impacts my 
State of Nevada.
    Most people do not realize there are actually 32 Indian 
reservations and colonies that stretch across Nevada. 
Unfortunately, in January of this year, we had a severe 
flooding event in northern Nevada that impacted the Pyramid 
Lake Paiute Tribe.
    I have similar questions when it comes to the emergency 
declaration because I know under the Pilot Guidance you just 
released, there is a requirement that the emergency declaration 
can be made by the chief executive of the affected tribal 
government or governor of the State but it has to be made 
within 30 days of the occurrence of the incident.
    In my State, if the Pyramid Lake Paiute Tribe decides to 
work with the governor, who has not declared that emergency yet 
because they are still assessing the damage, can you address 
for me whether that 30 days is going to impact whether they are 
able to receive the funds or not or how you handle that 30 day 
timeline?
    Mr. Amparo. Senator, the 30 day is a regulatory timeframe 
that we have. We are aware of the preliminary damage 
assessments that are underway along with the work the tribe and 
the State are working together on. Our commitment is to 
continue to work closely.
    The impetus behind the Tribal Declaration Guidance and the 
change to the Stafford Act through the Senate Recovery Act was 
to provide an option to the tribe, an option that they can go 
with a declaration in partnership with the State and that has 
occurred and continues to occur throughout the country.
    Quite frankly, that is a great partnership between tribes 
and States or tribes have gone directly to the President 
through this. That provides their option. That option still 
exists but our commitment is to work closely with the State and 
the tribe.
    Senator Cortez Masto. Just for clarification, if they do 
not get it within that 30 days, you are still willing to accept 
that declaration and work with them to respond and provide the 
appropriate monetary response if possible?
    Mr. Amparo. That is correct. I would say that the State and 
the tribe can request an extension prior to the end of the 30 
days.
    Senator Cortez Masto. Okay. That could be normal course?
    Mr. Amparo. Yes, ma'am.
    Senator Cortez Masto. Maybe this is something you can 
provide to me later. I would like to know how active the 
regional tribal liaison is for region 9, particularly leading 
up to the severe event. If you could provide that to me in 
writing after this that would be fantastic.
    Mr. Amparo. I absolutely will, Senator. I would also take 
the time to say that among tribes, your State is among the 
greatest number participating in the flood insurance program as 
well. That is a good thing.
    Senator Cortez Masto. You just dovetailed right into the 
next discussion. As we all know, the reauthorization of the 
National Flood Insurance Program is very important. We also 
know that participation in the program overall is low among 
Native American communities.
    Can you talk a little bit about what effort FEMA has 
undertaken to boost participation in this program and ensure 
that these communities have affordable flood insurance?
    Mr. Amparo. Senator, I would like to be able to get back to 
you with more specifics but I will tell you what I do know.
    One, we announced yesterday consultation that will begin 
with Indian country on hazard mitigation planning review. That 
is an effort that we are undergoing to ensure that tribes have 
hazard mitigation plans in place prior to events from 
happening.
    In the same sense, part of my opening oral testimony has 
been to show you a bit about how agency has evolved as well. 
Working directly with tribes has increased our capacity 
internally.
    I believe in Region IX, your region, there is more than one 
regional tribal liaison. Now we are including in their body of 
work the responsibility to talk about all FEMA programs as we 
have interaction in both consultation but also in participation 
at one of our training institutes or outreach that we do to the 
tribes.
    We are providing information about the National Flood 
Insurance Program and what steps tribes can take to be active 
participants.
    Senator Cortez Masto. Thank you very much.
    Mr. Amparo. Thank you, Senator.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I want to give a special shout out to Mr. Booth, who I 
understand hails originally from Metlakatla.
    Mr. Booth. That is correct, Senator.
    Senator Murkowski. It is good to have you here. We 
appreciate your leadership.
    I mentioned in my opening comments the request from two 
villages. The Village of Nutok on December 24 applied for a 
presidential declaration of major disaster. They had 
destruction of their barge landing, sewage disposal systems, 
solid waste site, boat dock, 45 homes damaged and were 
concerned they will lose their water supply later this year.
    Again, the response to Nutok was that this request was 
denied because it did not fit the requirements of the Stafford 
Act. We recognize that Nutok's request was unique. This slow 
moving disaster, as I mentioned, is unique to FEMA.
    Even more recent was Kivalina's request. They submitted 
their application for major disaster declaration on January 15, 
2017. It was denied on February 1. In that application for 
disaster, they cited severe storms, flooding, persistent 
erosion, storm led to shutdown of the airport and does not 
allow for opportunities for evacuations.
    Clearly, these are situations that anyone would look at and 
say, this is a disaster area. If it is not a disaster 
immediately, it is clearly a disaster in the making.
    The question I have today is they were not given a reason 
for the denial except that based on FEMA's review of the major 
disaster declaration, it was not appropriate to address the 
situation in these communities.
    It kind of begs the question what is appropriate? What is 
FEMA's path forward for communities whether it is Nutok or 
Kivalina today, Shishmaref or other communities tomorrow? If 
you can provide any information or any reasoning behind the 
denials to me and whether or not FEMA was able to offer 
anything else in terms of guidance or assistance?
    I am trying to understand whether there are written 
policies out there that guide FEMA with these slow moving 
disasters and where are we with situations as these communities 
are facing?
    Mr. Amparo. Senator Murkowski, I will tell you that I agree 
with you. The situation of a slow moving disaster in the making 
is something not contemplated under the Stafford Act but it is 
a situation that we face, I think collectively ``we.''
    In that vein, I will also say that situations like this 
would call for more than a single-pronged approach in terms of 
FEMA or Federal declaration and one that is more akin to a 
whole of government approach.
    We do have a hazard mitigation grant program to allow for 
taking efforts prior to a disaster to lessen the impacts of a 
disaster, yet even within that program, I think that would not 
solve the problem faced by the communities.
    Senator Murkowski. Let me ask you then, because I agree 
with everything that you have said. One of the reasons that 
these applications were submitted, was recognized by the 
communities that these were unique, was because they have tried 
and have come looking for direct appropriations, an earmark.
    They have contacted the Corps trying to work through the 
Army Corps of Engineers and have basically been told, well, 
until you fall off the edge, there is no relief for you.
    When the Obama Administration announced its climate 
resilience grants last year, they thought ah ha, this is 
exactly where we can go and they made application through the 
Administration. Alaska villages got nothing from that.
    They said okay, you have the Stafford Act out there and if 
not there, where? Is this something that you will commit to me 
and to our Alaska Native villages, not just the Alaska Native 
villages, but we have other communities as well that are in 
jeopardy, that we can be working through to define how we can 
address some of these threats before we see that loss of life, 
before we see an entire village wiped out?
    Mr. Amparo. Senator, you have my commitment that I will 
work with you, your staff, and the Alaska Native villages on 
this issue, including bringing in other Federal agency partners 
that may be necessary.
    Senator Murkowski. You are right. It does need to be a 
whole of agency approach. Again, we are looking for guidance 
and somebody to step up and take point because to this point in 
time, no agency has been willing to shoulder it.
    It is a significant task but it is one that I think we 
recognize we have to address. We are going to have to address 
more situations like this rather than less going forward.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I would like to turn to Mr. Desautel's comments as it 
relates to the impacts that rural communities are seeing and 
FEMA's designation. Mr. Desautel mentioned how two requests by 
rural communities in our State were turned down by FEMA frankly 
because the way the definition works, it does not recognize 
rural communities.
    I do not know, Mr. Amparo, if you have any comments about 
that definition and how it came into place. Just so my 
colleagues know, this would be like saying Galena, Taos, Aspen 
or something does not have an impact because there is not a 
concentration when in reality, the impact to that community is 
just as devastating.
    The fact that it is a rural community, maybe based on 
tourism, maybe in our case, at least in Twisp and other aspects 
of the Carlton Complex fire, the workforce was basically unable 
to locate in the region.
    They continued to support the hotel and continued to 
support all this but because your definition says it has to 
have this concentration of population and this much assessment 
of housing damage across the population area, these communities 
do not get any help.
    Mr. Amparo. My comments in this area would be that I do not 
believe it is the definition of a concentration of damage or is 
it an issue of rural vs. urban. It is more of what the 
aggregate damage and destruction was.
    The Stafford Act is for supplementary assistance when an 
event has exceeded the capacity of the tribe or the State. In 
the case of Colville, I do not have the damage assessments in 
front of me, I believe it was more the case of the damages in 
aggregate, not the fact that the damages occurred in an area 
that was rural.
    Senator Cantwell. I am pretty sure they were pretty 
significant if he said there was 20 percent loss in revenue. 
Mr. Desautel, do you want to address that?
    Mr. Desautel. We never really got a response as to why we 
were denied but that was our assumption. From a damages 
standpoint, we still do not know to this day. We have been 
working on getting a full assessment for a year and a half but 
the damage was so vast, we still do not have a good handle on 
what that number might be as far as total economic loss or 
total resource damage.
    Senator Cantwell. Is it in the hundreds of millions?
    Mr. Desautel. I would guess it is north of $100 million. It 
is $100 million just in timber revenue.
    Senator Cantwell. Okay, so pretty significant damage when 
that is your operating revenue for your government?
    Mr. Desautel. Yes, ma'am.
    Senator Cantwell. Pretty significant.
    I think, Mr. Amparo, I really do believe this Committee has 
to come back and address this or other committees because I 
think we are going to continue to see this kind of devastation. 
I do not think these trends are going to stop, whether it is 
flooding or fire. They are not going to stop.
    I think the point is that while you are thinking of it as 
the impact of damage, you have to think of it as a percentage 
of that rural economy. What happens in the State of Washington, 
a rural economy that exists on a major thoroughfare, is the 
anchor for the entire region is decimated and people cannot go 
to work because there is no housing. It becomes a problem.
    I wanted to touch, Mr. Desautel, on another related issue 
particularly since my colleague from Alaska is here and she and 
I have worked so hard on trying to get out a timber bill.
    One of the things I believe you have been able to do 
successfully on the Colville Reservation is the type of fuel 
reduction that has helped in protecting some of your 
timberlands by creating barriers and efforts to better manage 
the forest, is that correct?
    Mr. Desautel. That is correct. We have done active forest 
management which was commercial type treatments that has 
reduced stocking and changed species composition for those 
acres so those acres are more resilient to fire.
    We have done other fuels type treatment, especially in 
those areas where we see risk to communities. We also see 
resources pulled when we have active fires.
    Senator Cantwell. Even though we saw devastating seasons, 
you saw success in having done that kind of work. If we could 
do more of it in the future, it would be helpful to protecting 
our communities?
    Mr. Desautel. Yes, I think you are exactly right. We have 
done a lot of it. We have not done enough of it. It is 
definitely a pace and scale thing that there are lots of acres 
that are growing into fire regime twos and threes, for those 
familiar with that, where they are very susceptible to insect, 
disease and fire.
    You need to make sure we are treating enough that we are 
keeping pace with that while making progress towards making 
those acres resilient for future fires and disturbance.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Again, 
congratulations on heading up this Committee.
    As I mentioned in my opening statement, I am concerned 
about the Prairie Island Indian Community in my State. Prairie 
Island Indian Community is located essentially on an island in 
the Mississippi River on the river's floodplain.
    The nuclear reactor and the nuclear waste sites are located 
about 600 yards from the nearest home on Prairie Island. The 
community is obviously concerned about the potential for 
emergency situations causes by either the power plant or by the 
flooding. This concern is exacerbated because there are few 
evacuation routes off the reservation.
    My question for both Mr. Amparo and Mr. Booth is basically, 
has FEMA consulted with the Prairie Island Reservation to 
develop an emergency preparedness plan?
    Mr. Amparo. Senator Franken, I spoke earlier with our 
regional office out of Chicago, Region V. I have information 
that they have a very good relationship with the Prairie Island 
Community, specifically because of their proximity to the 
nuclear plant.
    Because of that, tribal government staff has hosted and 
participated in several of the FEMA tribal emergency training. 
Additionally, the community has participated in exercises that 
have been offered by our regional office as well.
    There are requirements as well from the nuclear power plant 
site to help host those types of exercises to ensure that the 
community is aware of hazards, evacuation planning and the 
like.
    Senator Franken. So there are evacuation routes in place 
and a plan in place in case of an event?
    Mr. Amparo. Yes, sir. I can get back to you with specifics 
on that plan and those evacuation routes. I do know having 
spoken with our regional office that there is a good working 
relationship with the community.
    Senator Franken. Thank you.
    Obviously every tribe is unique and so is its relationship 
with the State government. In Minnesota, tribes and State 
government have a good working relationship when it comes to 
preparedness and relief from disasters.
    It is my understanding that the Tribal Stafford Act does 
not outline ways for the States to work collaboratively with 
tribes and obviously coordination between tribal and State 
governments is very important during disaster relief efforts 
and during the events.
    Can you speak, Mr. Amparo or Mr. Booth, to what FEMA does 
to foster the relationship between the States and the tribes?
    Mr. Amparo. Yes, sir. I outlined a bit of what we went into 
just with the consultation for our Tribal Declaration Guidance 
in working with tribes. Prior to coming to work at FEMA, I 
worked with the State of Florida in emergency management. We 
worked with our Miccosukee and Seminole Indian tribes there.
    It is a relationship which we value because many times 
there are declarations or there are disasters that are not 
declared. I think we have spoken about several here today. The 
relationship between a State and the tribes pays dividends in 
helping disaster survivors where they are.
    We have hosted training sessions. The exercises that we do 
are both with tribes and with State partners, again valuing 
that. Last year, when we did the Cascadia exercise, the 
Cascadia subduction zone, we had 24 tribes participate along 
with three States, so they were working jointly at the State 
level and also at the local emergency management level.
    Senator Franken. I was wondering also about the counties. 
Obviously that coordination seems to be key to me because it is 
all hands on deck during an emergency.
    Mr. Amparo. Locally is where the resources come first as 
well, whether it is a fire engine.
    Senator Franken. Or getting electricity back up.
    Mr. Amparo. That is right, so it is the Rural Electric 
Cooperative that is providing services.
    Senator Franken. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. This question is for either Mr. Amparo or Mr. 
Booth.
    President Begaye talked about when they had the mine 
disaster and the spill on the reservation that essentially FEMA 
took the position that all the other agencies were in there 
taking care of things.
    You talked about working with other agencies. Tell us how 
you work with those other agencies and when other agencies are 
involved, how do you make that decision to come in or not come? 
I want you to specifically respond to the situation Mr. Begaye 
described.
    In other words, there is a big difference between you 
coming in immediately and providing disaster assistance and 
relief assistance or taking the position, well, there are other 
agencies taking care of that, so we are not going to.
    I want you to respond to that and then I am going to ask 
President Begaye to kind of tell me what he thinks of that, how 
it works and how it should work. I will start with you.
    Mr. Amparo. Sir, I am a Federal public servant and I am an 
emergency manager. When faced with situations like this, we 
certainly recognize where FEMA has authority to operate. 
Sometimes our assistance is not the emergency assistance, it is 
reimbursement assistance. It is dollars to help pay for what 
other agencies can provide.
    I certainly know that in the spill, the Environmental 
Protection Agency had jurisdiction but we do work as a 
interagency. I think that is what is expected of us as Federal 
servants. We work through what is known as the Emergency 
Support Function Leadership Group, the ESFLG, where we have all 
interagency partners there. We discuss the threats out there.
    It is also my understanding that in that spill, the 
Environmental Protection Agency set up a Unified Coordination 
Group. I can go back and get much more specifics and respond to 
you with much more clarity but I will tell you, at least from 
the posture of our agency, our agency's leadership, we do see 
ourselves as a coordinating entity, even in ensuring that the 
right agencies get to be able to support the communities and 
individuals impacted by disaster.
    The Chairman. President Begaye, would you discuss how that 
worked on the ground and how you think it should work or could 
be improved?
    Mr. Begaye. Yes. The response we got from FEMA, this is 
what they said, ``The vast majority of the response and 
recovery efforts for this event, Gold King Mine spill, fall 
under the authorities of other Federal agencies,'' which meant 
to us the U.S. EPA.
    I met with USDA and asked them, why aren't you helping us? 
They said, ``We were told that we are not the lead agency; that 
EPA is the lead agency and we are not to assist unless they ask 
us to come to the table.''
    I said, well, why can't you just use your normal, regular 
responsibilities and help us clean out the ditches where the 
spill came in and just help us from that standpoint because we 
are talking about farmers and so forth? Why can't you just come 
under your own program, not under EPA?
    We understand this whole dynamic that has taken place as 
far as EPA saying back off other Federal agencies; we are the 
lead in this disaster and we will ask you when we need you to 
come to assist Navajo Nation.
    We are asking that this policy change, that there be a 
definite ``collaboration among Federal agencies when any 
disaster occurs.'' FEMA, HHS, or any Federal agency should come 
to assist in any type of major disaster, declaration or 
emergency declaration.
    I believe that needs to be clarified also because there is 
one category for major disaster declaration and then there is 
another category for emergency declaration. Under the major 
disaster, they will come and help assist farmers, ranchers with 
livestock and crop losses. Under emergency declaration, we 
understand they could not help in that instance.
    All of those need to be clarified. All Federal agencies 
need to be called on to assist in any disaster, especially in 
the magnitude of the Gold King Mine.
    The Chairman. Now I am going to go to Governor Chavarria 
and ask essentially the same question on the Pilot Guidance, if 
it is what it should be or if it should be modified. If so, 
how?
    Before I do, did you have any response, Mr. Amparo?
    In regard to President Begaye?
    I am very concerned. When a tribe or anyone else has to 
start trying to figure out which agency is going to help and 
each agency says, it is really that agency, it can be a very 
frustrating and difficult situation. Particularly in an 
emergency response, I am concerned about that.
    Mr. Amparo. Senator, I have a response and I will tell you 
that I do have questions. I believe there is an exigency that a 
tribe must have the right answers when faced with a disaster. I 
agree with that.
    I also believe that, quite frankly, one of the things we 
are doing with our outreach, with our tribal liaisons, is to 
talk about what FEMA programs do and do not do, and what other 
Federal agencies can provide so that it is not when the 
disaster is at our doorstep that we are having that 
conversation. We can preplan and know ahead of time.
    There is more work. Part of my statement is to say that 
there is much more work for us to do, including our other 
Federal agency partners, to work with Indian country about what 
our programs provide and how we can synchronize them so that 
they are efficient.
    The Chairman. President Begaye.
    Mr. Begaye. Just the word jurisdiction really implies that 
this is our responsibility. It is our jurisdiction and not 
yours. That language needs to be taken out.
    The other thing is right answers. To me, it should not be 
that. If you provide the right answers, we will help you. That 
should not be the response of FEMA. They should be coming 
alongside and helping us develop those applications because we 
do not know what the right answers are or what the right 
languages are.
    We need FEMA to come alongside and help us help those 
people who are losing homes, vehicles, farms, crops, irrigation 
and things like that. We need them to come alongside us and 
treat us as human beings.
    The Chairman. I think that is the key. Even if it is not a 
FEMA response, it is a FEMA responsibility to make sure that 
the agency, whoever is the responder, is taking care of things. 
That should be a FEMA role as well as direct response if you 
are not the direct responder. That is kind of what I am getting 
at here.
    Governor Chavarria, your thoughts?
    Mr. Chavarria. I also feel that it is open to 
interpretation. Yes, we have the Pilot Guidance document but it 
comes with challenges. It is a new process for both the tribes 
and FEMA. We are the first tribe in Region 6 to utilize the 
Stafford Act amendments to allow the tribes to go direct.
    However, as the changes to the Stafford Act allows tribes 
to see that direct disaster declaration are promulgated, FEMA 
may be better served by implanting a training program that 
better communicates the regulatory requirements associated with 
being a direct guarantee.
    This would better enable the tribes to make an informed 
decision regarding FEMA's assistance may it be for your public 
assistance or your individual assistance. Those are different 
categories that fall within FEMA.
    It is very important. It is not a catchall because FEMA is 
not the answer to all the disasters. You have the Corps, BIA, 
the Bureau of Reclamation, the Forest Service, and the Park 
Service. All these other agencies are out there but how do they 
fit in because the time of need is where that dollar needs to 
hit our communities.
    We have had bad experiences as sub-grantees. Our first 
disaster happened on August 21, 2011. We did not get the funds 
until almost a year later. By then, you have additional events. 
That is very important. Yes, there is a process. However, what 
is critical that starts off anything is your hazard mitigation 
plan. If you do not have a hazard mitigation plan, you do not 
even qualify. That is important.
    As the President said, the facts need to be addressed to 
all tribes and have a good understanding of the regulatory 
requirements because even though you do not meet that $250,000 
threshold, you are not even eligible for financial assistance. 
That is hurtful and again, it is not a catchall.
    The best way that FEMA and tribes can really get together 
is sit down, have a training session, so both sides understand 
what the roles and responsibilities are or what we are 
accountable for on both sides of aisle.
    The Chairman. Exactly right. We are on the front end of 
this, so it is building the process and making sure it works 
and fostering understanding.
    Mr. Chavarria. Yes.
    The Chairman. Director Desautel, anything else along that 
line from your recent experience?
    Mr. Desautel. One thing I think FEMA struggles with is in 
our area, when there were disaster declarations, they used the 
county records to assess value to try to get to that threshold 
but for trust properties, they are not assessed by the county 
so they do not have a good way to value resources whether it be 
homes or land damage.
    I think that is also something that needs to be assessed to 
determine what values are placed on tribal lands. If you do not 
have an accounting system like the counties have to document 
what the value is, it is really difficult for us to manage the 
process and show $250,000 worth of damages.
    The Chairman. Mr. Amparo, anything that you want to add to 
respond to that?
    Mr. Amparo. Yes. I think that is a great point. It is one 
we heard very loud and clear. In our Tribal Declarations 
Guidance, we took that into account. Now we will go to the 
tribe and ask them to provide us that information.
    There has also been some great movement with the Oglala 
Sioux Tribe where they are working to get better numbers 
themselves. When we are active in a joint field office, we work 
with the tribe to help them either map the roads or help them 
get more but I would like to have our tribal advisor talk a 
little bit to the Governor's comments and our efforts to better 
create an environment where we are sharing more information.
    Mr. Booth. Thank you, Mr. Amparo.
    Mr. Chairman and Mr. Vice Chairman, to address the 
Governor's comments about training and integration with our 
rollout plan that we started last week, we started off with a 
national webinar/conference call.
    It continued this week at the United South and Eastern 
Tribes where we had our Tribal Consultation Coordinator for the 
Tribal Declarations Pilot Guidance give that presentation so we 
can collect those comments and get the word out.
    We are going to continue doing this as immediately as next 
week at the National Congress of American Indians' Executive 
Winter Session and will continue as we move forward both at 
regional and national tribal associations.
    The Chairman. I think it is very important. Again, you are 
on the front end of the process. You need to create that 
understanding, get the good input and build the best approach 
you can with all the tribes.
    I apologize, Vice Chairman, for going over my time. I 
should have broken that up into two but I did not realize that 
some of my questions would go as long as they did. However, you 
go ahead and complete with any questions that you have.
    Senator Udall. That is the Chairman's discretion. No 
problem there. It is good to finish your train of thought and 
get the points in. We really appreciate that.
    What the Chairman has outlined here is very helpful. His 
approach and my approach I think will be very similar in terms 
of trying to get to the situation where we get help in these 
disasters.
    Both tribal leaders have shown they want to do, Mr. Amparo, 
everything they can on the ground at the time of a tribal 
emergency to try to help their people. If there are situations 
where, for example in the Gold King Mine spill, the Navajo 
Nation had specific expenses they were expending as a part of 
this emergency. They wanted to have a relationship with the 
Federal agency to figure out whether or not they were going to 
be reimbursed, how they were going to be reimbursed, and what 
the timetable was going to be.
    Following up on some of what Chairman Hoeven said, it seems 
to me one of the issues here is the issue if EPA is supposed to 
be the lead, is EPA, in your opinion, capable of being lead in 
a disaster? I thought FEMA was the disaster agency.
    How does that happen all of a sudden with an agency like 
the EPA, because they happened to be the agency that caused the 
problem? As President Begaye said, here you had a mine that 
backed up, filled water and filled water and filled water and 
the EPA contractor punctured a hole in it and that caused the 
flood.
    That is what caused the flood and now they are in charge of 
the emergency. How does that happen? I am wondering do you 
assess or look at this and say, well, they know all about 
floods and disasters with mines and are capable of doing this? 
How do they get to be the lead?
    It seemed to me you are the lead in a way on a disaster. 
Let me tell you that when you have come into New Mexico, we 
have had disasters on reservation and off reservation. I have 
seen some very impressive work by FEMA. We had the Cerro Grande 
Fire in Los Alamos which wiped out 400 homes. FEMA was in there 
and you did some incredible work.
    Part of asking this question is trying to get to the heart 
of how do we get the very best response for Native communities 
when it comes to these disasters like both Governors have 
described?
    Mr. Amparo, can you answer that briefly because I do not 
want to go much over what the Chairman went. I know we are both 
busy here today.
    Mr. Amparo. First, to the President, let me first say that 
there is no secret code in terms of asking the right questions. 
Our commitment from our regional office is to have our experts 
work with tribes on requests they make of us to ensure that we 
are reviewing documents for them prior to their submission. 
That is something we do.
    Second, to commend Governor Chavarria for speaking about a 
mitigation plan and talking about that being the start and 
where we need to go, that is an area that is refreshing for us 
because we know that understanding what vulnerabilities and 
risks are prior to event changes the outcome.
    Our commitment is to work with other Federal agencies, 
ultimately to support the tribe. We are going to continue to do 
that.
    The Chairman mentioned that and I have questions. I will 
have to look more at it with our regional office but our 
commitment will be to work closely with the tribes and should 
an incident like this happen again, ensure that the outcomes 
are the ones that are expected.
    Senator Udall. Thank you very much for that.
    President Begaye, I know you are an incredible champion for 
the Navajo people in terms of trying to deal with this 
disaster. You were everyplace. I believe you and some of your 
officials went to water tanks which were going to be provided 
for drinking water and it ended up that some of that was 
tainted with oil. You said, these cannot be for drinking water.
    I know how upset you are and you stated very well what 
happened. The new Guidance that has come out from FEMA, in your 
opinion, are we headed in the right direction on that?
    Mr. Begaye. Consultation is always a thing that we have to 
do. Having an advisory council is always the right thing to 
have. Having the right benchmarks, $250,000 against $1 million, 
is the right thing to do. Those are good starting points.
    The webinar, they are always helpful if we can have access 
to Internet. That is always a challenge for us, especially on 
Navajo when 30 percent of our people have access and 70 percent 
do not. We have those challenges.
    However, the new principle that they put in place, we made 
comments on it. We believe the consultation is really 
important. It is helping to clarify some of these terms I 
mentioned earlier, ``major disaster declaration'' versus 
``emergency declaration,'' our actual liability partner or 
potential liability partner, what does that terminology mean, 
what are they?
    If we can answer those types of questions, we can better 
answer, especially when we apply for disaster assistance and we 
know what language to use, how to approach FEMA and other 
Federal agencies. I endorse that. I feel that is something we 
need.
    Having a tribal liaison person, of course, is always very 
helpful. Having a FEMA office on Navajo would be tremendously 
helpful. We are as big as West Virginia and we should have our 
own FEMA office located on Navajo Nation. That is how we can 
really resolve these issues.
    Senator Udall. Thank you.
    President Begaye, for you and I, I think one of the 
frustrating things in this particular situation with EPA was 
that the EPA Administrator came out from the beginning. Now I 
am talking about the injury to the farmers that happened on the 
land. We have been to many of the same farms. She said from the 
beginning, ``We take responsibility. We are going to take 
responsibility. We are going to make sure those farmers get 
paid for their damages.''
    That is the way we proceeded but there was a little glitch. 
Over here there was a little independent agency within EPA that 
has to make a decision on liability. About a year later, they 
tell us, sorry, you have to file a lawsuit and go to court. We 
were on one track and now we are on another track.
    You and I are working on legislation with your Washington 
office and with others. I would just ask you to urge the 
Committee, this is your opportunity to tell the Committee why 
these folks should be compensated.
    You described what happened and how the Navajo people live 
an agricultural life and what they are doing out there and you 
would urge us because we need to pass legislation to help these 
farmers. This is really important.
    This is your opportunity to speak to the Committee as a 
whole. There are only two of us here but believe me, everyone 
else will hear it.
    Mr. Begaye. Thank you, Senator.
    When a Federal agency says we caused a spill, we will hold 
ourselves responsible and we will make sure that all the 
impacted people will be compensated, when that statement comes 
out of the mouth of a Federal agency, we expect that to happen.
    Just within the last few weeks, I got a letter that says we 
will not give you a dime. We will not help you because there is 
this Federal sovereignty that exists meaning that we cannot be 
sued, we cannot help you.
    None of our farmers have ever been helped. This is when a 
Federal agency says, we will hold ourselves responsible. When 
that statement is made, we expect and I believe this Committee 
will have to hold that agency's feet to the fire to say you 
said that, it came out of your mouth in a Senate hearing, then 
you ought to pay up.
    These farmers are hurting. Not a single farmer has been 
compensated. That to me is criminal. That should never happen 
within the trust responsibility, trust relationship that we 
have, government-to-government relationship we have.
    Every one of those farmers today are still hurting, over a 
year and a half. None of them have been compensated. They are 
still out there. You and I visited, we have been out to the 
farms. They weep; they are crying, so the disaster is 
continuing.
    Farming is not just one crop. It is multiple crops, 
multiple seasons. When you cut off the water stream, when you 
are not able to use the water, we are talking about a disaster 
that lasts for two to three years. That is happening to our 
farmers today.
    I am asking this Committee to hold EPA's word and let them 
compensate every one of our farmers that has been hurt. That is 
our priority.
    Of course we also, as tribal nations, need to be 
compensated for the work we have put in too because they said 
they did it and they would hold themselves responsible. To this 
day, they have not. That letter specially says, we cannot 
compensate you a penny. That is wrong. I am asking this 
Committee to step and hold EPA's feet to the fire.
    Thank you.
    Senator Udall. Thank you very much. I could not agree with 
you more.
    I have one final question for Governor Chavarria. Santa 
Clara has had five presidential disaster declarations. Three 
have been as a sub-grantee pursuant to requests made by the 
State of New Mexico and two issued directly to the Pueblo by 
the President.
    How would you compare the two approaches? Can you explain 
to the Committee the advantages and disadvantages of each 
approach? Would you prefer to use one or the other in the 
future?
    Mr. Chavarria. Let me start from the last and go back. I do 
not want to experience another disaster. It is a headache, it 
is time consuming but because of build up in terms of capacity 
and capabilities, we have shown that our tribe is capable of 
implementing and utilizing these Federal dollars to our best 
advantage.
    We even had the Office of OIG come out and do audits of the 
use of those funds. Those audits came back clean.
    For me, it is up to us as tribal leaders, the tribal 
council, as a direct grantee to have the opportunity to tell 
your own story. Identify your specific needs. Again, having 
that tribal mitigation plan is crucial.
    If you go with a sub-grantee, you are letting someone else 
tell the story for you, having the State tell the story and 
identify your needs, your infrastructure damage. Then you have 
to use their State mitigation plan. You absorb 25 percent of 
the cost if you go as a direct grantee. If you go as a sub-
grantee, you are indebted for 12.5 percent of that cost.
    The most important thing is the technical support from the 
Federal agency which is FEMA. Another thing as a con, if you go 
as a sub-grantee, you do not get the 324 administrative costs. 
All the tribes still have administrative burdens, so we are not 
guaranteed those administrative costs.
    However, as the direct grantee, you are guaranteed 3.37 
percent of the total cost to come down and help with 
administrative burdens. That is very important. We see that 
smaller projects receive quick funding responses from FEMA 
while the larger projects such as a permanent road and water 
control facilities remain mired in time consuming, quality 
assurance, quality control processes.
    While clearly important, these processes greatly lengthen 
the review time. Time is of the essence in preventing or 
mitigating a natural disaster. For Santa Clara Pueblo as we 
enter the monsoon season, we spend our days scanning the skies 
and read the weather reports, fearing the worst and praying for 
the best.
    Receiving funds that support recovery efforts prior to 
seasonal impacts and monsoons is imperative in breaking the 
cycle of continued damage. As our presidential disaster 
declaration experience demonstrates, in emergencies, project 
implementation is crucial to protecting lives, securing our 
communities and preventing repeated damage to key 
infrastructure of Santa Clara.
    As I mentioned, we are not wealthy financially. I have been 
asked to combine all five disaster declarations but I was told, 
no, because each disaster is its own disaster. I cannot combine 
all five when then helps me financially.
    Right now we are going through all disaster project 
worksheets and determining are these still feasible? If not, 
let us take that one back and give it to the Federal Government 
because ultimately it comes back to the cost match.
    Those are the things our staff is reviewing and determining 
but ultimately closing out these projects is essential because 
that is where reimbursement comes into play.
    Senator Udall. Thank you very much. Thanks to all of the 
witnesses.
    Thank you for your courtesies, Mr. Chairman. I appreciate 
it. I am sorry to run over.
    The Chairman. Absolutely. No problem at all.
    If there are no more questions for today, members may also 
submit written follow-up questions for the record. The hearing 
record will be open for two weeks.
    With that, I would also like to express my thanks to you, 
Vice Chairman, and to all of our witnesses. Thank you for being 
here. We appreciate it very much.
    With that, this hearing is concluded.
    [Whereupon, at 4:33 p.m., the Committee was adjourned.]

                            A P P E N D I X

   Prepared Statement of Jeff Hansen, Director, Office of Emergency 
                 Management, Choctaw Nation of Oklahoma
    Good afternoon. Mr. Chairman, members of the Committee, my name is 
Jeff Hansen and I am the Director of the Office of Emergency Management 
for the Choctaw Nation of Oklahoma. On behalf of our Chief, the 
Honorable Gary Batton, I thank you for this opportunity to provide 
testimony on FEMA's role in Indian Country.
    It is my responsibility to ensure that the Choctaw Nation of 
Oklahoma develops and maintains a robust Emergency Management Program 
for our tribal service area, for our tribal citizens, and for our 
neighbors. I have had oversight of the emergency management program for 
the past four years and have worked diligently to develop the 
capabilities necessary to respond to any potential disaster that may 
arise. Our capabilities have grown from a piece-meal response 
initiative to a coordinated effort through many departments within the 
Nation. We have reached many milestones in this time, but there is 
still more to do.
    The Choctaw Nation jurisdictional boundaries cover a 10 \1/2\ 
county-wide area in southeastern Oklahoma encompassing approximately 1 
1,000 square miles. This mostly rural area has a Census 2010 population 
of 233,126. Of that, approximately 42,000 are Choctaw tribal members. 
The Choctaw Nation shares governmental responsibilities for our 
citizens and our neighbors with state and various local units of 
government. Because our Indian Country lands were divided and 
distributed, in the form of fee-simple properties, to Choctaw Nation 
citizens in the late 1800s and early 1900s, we face a somewhat 
different approach to emergencies than do Indian tribes who have been 
able to maintain a contiguous reservation land base. Our tribal 
government responsibilities are necessarily intertwined with the 
governmental responsibilities of our neighboring towns, cities, 
counties and states.
    Not unlike the rest of Oklahoma, the Choctaw Nation has experienced 
and responded to numerous disasters. Annually, we face the potential 
for any number of emergencies, including ice storms, tornadoes, floods, 
hazardous materials releases, high winds, drought, wildfires, 
transportation incidents, to name a few. In every instance, the Choctaw 
Nation of Oklahoma responds with both personnel and resources to 
address not only the needs of our people but also the non-tribal 
citizens within our jurisdiction. We have also responded to areas 
outside the Choctaw Nation to assist our fellow Oklahomans. It is our 
belief that we must all work closely in partnership with one another to 
provide the most good for the most people possible in times of disaster 
need.
    The Choctaw Nation of Oklahoma applauds the work of this Committee, 
Mr. Chairman, and of the entire Congress on its effort to improve the 
Stafford Act through the Sandy Recovery Improvement Act. The ability 
for tribes to request a disaster declaration through the President of 
the United States is a remarkable step forward in the recognition of 
the Nation-to-Nation relationship and Trust Responsibility of the 
Federal Government and Indian Country. I believe the relationship 
between Tribes and specifically the Federal Emergency Management Agency 
have improved exponentially in recent years. However, there is still 
more work to be completed.
    With last month's release of the Tribal Declarations Pilot 
Guidance, we can see the culmination of several years of work toward 
active consultation with tribes throughout the country. FEMA held over 
100 meetings around the country from 2014 to 2016. I personally 
participated in at least 10 listening and consultation sessions through 
various settings. In every session, I heard Indian Country make our 
voices heard in regards to emergency management. According to FEMA, it 
received and adjudicated almost 2000 comments in regards to the Pilot 
Guidance during that time. As we progress through the pilot stage of 
this Pilot Guidance, there will be opportunity to review some of the 
issues that arise. However, FEMA should address some issues during the 
pilot phase of the Pilot Guidance.
    The Pilot Guidance allows the chief executive of a tribe to decide 
what direction the tribe would like to pursue in regards to a 
declaration. Specifically, the chief executive can either request a 
declaration directly to the federal government or request a declaration 
as a sub-grantee or recipient to the state. One of the most pressing 
issues with the ability for a tribe to decide whether to go directly to 
the federal government or through a state is the political landscape in 
which it functions. In the case of Indian tribes in Oklahoma, and many 
other ``checkerboard'' tribal nations, this issue can be tricky to 
navigate. Because we do not have contiguous lands, damages to our 
infrastructure can be very widespread. If the Choctaw Nation elects to 
go directly to the federal government for a declaration, our damages 
are removed from state calculations. This could lead to a situation 
where a particular county has reportable damages but fails to meet its 
individual county threshold without our damages included. While the 
tribe may receive a declaration, the county in which the damages 
occurred may not qualify for assistance. This could potentially leave a 
particular jurisdiction with a large amount of disaster related costs 
that it cannot afford. As a good neighbor, an Indian tribe must decide 
what is best for the whole community. Unfortunately, the county cannot 
go to the tribe as a sub-grantee in the same manner that the tribe can 
go to the state. That should be fixed with authority written into 
federal law.
    A second potential issue is with a tribe's ability to handle the 
personnel and regulatory burden following a disaster. While this will 
depend upon a tribe's capability, it is still relatively unknown what 
the current capability levels are within Indian Country emergency 
management. Many individuals have expressed the need for emergency 
management programs to grow within Indian Country; hard data supporting 
that need remains as anecdotal evidence. For many years, states have 
received funding through the Emergency Management Performance Grant 
program. Unfortunately, the manner in which the law was written 
prohibits Indian Country from directly participating in the program. 
States and territories use EMPG funds use in a variety of ways to 
support the implementation of the National Preparedness System by 
supporting the building, sustainment, and delivery of the core 
capabilities as defined within the National Preparedness Goal. The 
states and territories receive funds from this program based on a 
population-share basis. Each state determines how the money is spent. 
In most cases, tribes can apply to the state for funding. However, this 
is not always the case. Grant programs supporting the development of 
the core capabilities with tribal set-asides remain limited. The 
statute should be improved with more tribal set-asides.
    Lastly, FEMA has worked to expand its outreach to tribes through 
the appointment of full time Tribal Liaisons. While this effort has 
definitely improved relationships, a few FEMA regions remain limited in 
outreach capability due to large number of tribes and limited FEMA 
personnel. Within FEMA Regions 6, 9, and 10 there are a total of 478 
tribes. Currently, Regions 6 and 9 have only one Tribal Liaison each 
while Region 10 has four Tribal Liaisons. The amount of travel required 
to engage this many tribes is daunting. Limited staffing at the FEMA 
regional offices that deal directly with tribes creates a roadblock in 
the tribes being able to develop their programs and have meaningful 
relationships with FEMA.
    We do not have all the answers but I would like to make some 
suggestions that will may help to move Tribal Emergency Management 
Programs and their relationship with FEMA forward. We would ask that 
this Committee persuade FEMA to look into the potential to have local 
jurisdictions request assistance as sub-grantee recipients to the 
tribes in the event they do not meet their threshold when a tribe 
receives a disaster declaration. This step would provide a more unified 
approach between the states and tribes as we assist our common 
communities in common disaster contexts.
    We would also ask that this Committee work within Congress to 
address funding opportunities for tribes within the emergency 
management field. The lack of available funding continues to be a major 
issue in the establishment and enhancement of emergency management core 
capabilities in Indian Country. Targeting to Indian tribes funds like 
those released in the EMPG program would allow tribes to begin building 
capacity and becoming an asset to local and state jurisdictions during 
a crisis.
    Lastly, we ask that this Committee urge FEMA to expand its Tribal 
Liaison program to assist in those regions where the majority of tribes 
reside. Additionally, funding for training opportunities through FEMA 
will assist in preparing tribal emergency management staff for the 
tasks associated with the declaration process and the regulatory 
paperwork to follow a disaster.
    Again, thank you for the opportunity to provide testimony to the 
Committee. It is an honor to be able to provide updates and background 
to the situations we face in Indian Country. The Choctaw Nation of 
Oklahoma is committed to better preparing our communities for disasters 
and working with our partner agencies to respond and recover. Your 
continued support is critical to the reduction of disaster impacts 
across all of Indian Country. Yakoke!
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Alex Amparo
    Question 1. What types of coordination efforts have there been to 
update Tribal on the process and requirements for requesting Stafford 
Act declarations?
    Answer. In coordination with FEMA's National Tribal Affairs Advisor 
and FEMA Regional Tribal Liaisons, FEMA Recovery Directorate and Office 
of External Affairs Tribal Partners Branch hosted two national 
webinars/conference calls on the final version of the Tribal 
Declarations Pilot Guidance, which included information on the process 
and requirements for requesting Stafford Act declarations.
    In addition, FEMA continues to provide briefings at national and 
Regional Tribal conferences and for individual Tribes when requested.

    Question 2. What actions has FEMA taken to help Tribes understand 
what Federal resources are available to build and maintain their 
emergency management capacity?
    Answer. FEMA is committed to partnering and collaborating with 
Federally recognized Indian Tribes, and to providing resources to 
support their preparation for, protection against, mitigation of, 
response to, and recovery from all hazards and disasters.
    FEMA established both a Tribal Policy and Tribal Consultation 
Policy that provide the framework for FEMA Tribal relations, and guides 
how the agency delivers technical assistance and programs tailored to 
the unique circumstances of Tribal communities.
    FEMA offers various resources to support Tribes. This includes:

  <bullet>  Information Sharing and Program Support: sharing 
        information with, and receiving feedback from Tribes on issues 
        and resources that impact their communities;

  <bullet>  Technical Assistance and Grant Opportunities: assisting 
        Tribes with technical assistance and providing awareness of 
        available grants that assist in building Tribal emergency 
        management capability and capacity;

  <bullet>  Training and Exercises: providing access to training at 
        FEMA facilities and local Tribal venues to strengthen Tribes 
        ability to respond to emergencies by addressing identified gaps 
        and weaknesses; and

  <bullet>  Tribal Consultation: working with Tribes to collect their 
        feedback on potential FEMA Tribal policies and actions to 
        ensure we are in compliance with EO 13175.

    These areas, described in more detail below, ensure a consistent 
interaction with our Tribal partners and offers Tribes a platform to 
work with FEMA.
Information Sharing and Program Support
    FEMA's National Tribal Affairs Advisor (NTAA), in the Headquarters 
(HQ) Office of External Affairs, Tribal Partners Branch (TPB), is the 
senior advisor on Tribal issues to the FEMA Administrator and senior 
leadership. FEMA Regional Tribal Liaisons (RTLs) serve as the main 
points of contact for Tribal nations, and are directly contacted by 
Tribes for technical assistance or questions about available Federal 
resources. The NTAA engages regularly with the national Tribal 
associations to discuss policy issues with national implications for 
Tribes while RTLs regularly provide information to Tribal nations on 
FEMA programs, resources, and grant opportunities. They help coordinate 
technical assistance through various mechanisms--direct contact via 
meetings and calls with Tribal emergency managers on a regular basis, 
conference calls or webinars with Tribes in their regions or Regional 
Tribal associations, attending and presenting at Tribal conferences, 
and visiting and briefing Tribes in person.
    The HQ TPB hosts a monthly conference call with Tribal associations 
and organizations to discuss and share information to support emergency 
management efforts in Indian Country. In addition, FEMA's Office of 
External Affairs includes Tribal partners when FEMA sends out 
advisories to notify when a grant application period begins or when 
there are other opportunities to engage or participate. FEMA's Office 
of External Affairs also developed a ``FEMA and Tribal Nations'' pocket 
guide, which provides information and resources that may be helpful to 
Tribal partners. Distributed at Tribal conferences and meetings, the 
pocket guide explains the Agency's policies related to Tribal 
engagement, outlines key FEMA programs and how they specifically relate 
to Tribes, and provides contact information for the Agency's Tribal 
liaisons. This active engagement and frequent contact allows our Tribal 
partners to have visibility on FEMA programs and services as they 
change and evolve.
Technical Assistance and Grant Opportunities
    FEMA continues to improve its education, outreach, and technical 
assistance to Tribes to help them become more aware of available 
Federal resources such as technical assistance and eligible Federal 
grants. For example, FEMA provides technical assistance to Tribes on 
the Threat and Hazard Identification and Risk Assessment (THIRA), a 
process for jurisdictions to identify their greatest threats and 
hazards and ways to address them. Having a complete THIRA is a 
requirement for Tribal applicants applying for a Tribal Homeland 
Security Grant, which provides funding directly to eligible Tribes to 
strengthen their capacity to prepare for and respond to emergencies.
    The Federal Insurance and Mitigation Administration (FIMA) supports 
Tribal governments by providing guidance, training, and technical 
assistance in the development and/or update of FEMA approved Hazard 
Mitigation Plans and in the development of Hazard Mitigation Assistance 
(HMA) planning and project grants. Hazard mitigation planning enables 
Tribal governments to identify risks and vulnerabilities associated 
with natural disasters, and develop long-term strategies for protecting 
people and property from future hazard events.
Training and Exercises
    FEMA's Emergency Management Institute (EMI) provides training to 
Tribal governments and their employees to develop their emergency 
management capabilities. FEMA through EMI, engages with Tribes to 
design courses that reflect Tribal needs and gaps in capabilities. EMI 
provides housing during the training and reimburses participants for 
their travel costs. In addition to providing Tribal curriculum courses 
at FEMA facilities, EMI also provides these courses off-site, traveling 
out to Tribal communities directly. To date, more than 3,000 
certificates of completion have been issued for courses in the EMI 
Tribal Curriculum. EMI currently has planned 21 courses on their 2017 
schedule. Additionally, EMI provides Tribal emergency management 
officials access to 550 courses.
    FEMA's Center for Domestic Preparedness (CDP) also provides 
training to Tribal emergency responders. In fiscal year 2016, CDP 
hosted its first Tribal Nations Training Week and trained 157 Tribal 
emergency responders from 46 Tribal nations. More than 150 Tribal 
emergency responders from 41 Tribal agencies across the country, 
trained at CDP during their second Tribal Nations Training Week from 
March 19-25, 2017. CDP worked closely with Tribal students to enhance 
their capability to respond to disasters and emergencies by taking one 
or more of the seven courses delivered during the week.
    In addition to providing training, FEMA also coordinates exercises 
with Tribal nations to examine and validate readiness capabilities. In 
September 2015, FEMA Region VIII and HQ TPB worked with seven Tribal 
nations to coordinate a simulated exercise as part of Operation Safe 
Delivery in response to a crude oil train derailment on the Blackfeet 
Nation Reservation. In June 2016, FEMA Region X conducted a four-day 
functional earthquake and tsunami exercise, Cascadia Rising, and worked 
with 24 Tribes in Washington, Oregon, and Idaho. During these 
exercises, FEMA examined its internal capacity to understand and 
respond to the unique needs of Tribal governments. FEMA also invites 
Tribal governments in hurricane-prone areas to participate in FEMA's 
annual hurricane preparedness video teleconference with FEMA leadership 
and State emergency management directors.
Tribal Consultation
    FEMA's Tribal Consultation Policy establishes how the agency 
engages Tribes in meaningful consultation to influence FEMA policies, 
programs, and the resources supporting these efforts. The NTAA and HQ 
TPB work closely with all FEMA programmatic offices and Regions to 
ensure that FEMA policies take into consideration the unique needs and 
capabilities of Tribes, and engages these offices to plan their Tribal 
consultation outreach. This consultation outreach effort is worked 
through the RTLs allowing an agency wide effort to give Tribes the 
opportunity to be involved in the developing process of FEMA's 
policies, programs, and resources. The Consultation Policy provides an 
opportunity for Tribal governments to request Tribal consultation on a 
policy or action by FEMA that they determine affects their community or 
has Tribal implications. Tribal consultation is announced through in-
person events, Tribal meetings, monthly conference calls with Tribes 
and other agencies, and through Intergovernmental Affairs advisories.
    Tribal nations are a critical part of FEMA's whole community effort 
to improve emergency management capabilities and capacity across the 
nation and we remain committed to working with Tribes on a nation-to-
nation basis.

    Question 3. The disaster declaration process was developed for 
State governments, which generally have a larger tax base, receive more 
grant funds, and have decades of experience managing Federally declared 
major disasters. In comparison to the States, do Tribes have a similar 
level of Federal resources available to them to help manage the post-
declaration recovery process?
    Answer. The Sandy Recovery Improvement Act (SRIA) of 2013 (SRIA) 
amended the Stafford Act to provide Federally-recognized Indian Tribal 
governments the option to make a direct request to the President for a 
major disaster or emergency declaration or to seek assistance under a 
state's state declaration. Prior to SRIA State governments had primary 
access to Federal resources to help them manage the post-declaration 
recovery process, as compared to Indian Tribal governments. Today, due 
to SRIA, Tribes have direct access to FEMA response and recovery 
programs. In addition, our understanding is that there are other 
Federal government agencies that provide recovery resources to States 
and Tribes.

    Question 4. What assistance has FEMA offered, or could FEMA offer, 
to help enhance Tribal capacity to manage the recovery process?
    Answer. Technical assistance, through FEMA Regional Tribal Liaisons 
(located in all FEMA Regional offices), is one way that FEMA is working 
to overcome potential access issues. Before, during, and after disaster 
FEMA provides technical assistance and trainings to Indian Tribal 
governments on various administrative requirements for Stafford Act 
disaster assistance, including Preliminary Damage Assessments, 
administrative plans, mitigation plans, and grants management 
requirements. FEMA also provides field leadership to support Indian 
Tribal governments in addressing, organizing and managing disaster 
response and recovery activities through Federal Coordinating Officers 
and Federal Disaster Recovery Coordinators.

    Question 5. FEMA can authorize its crisis counseling program as 
part of an individual assistance package. Some IHS facilities also 
offer mental health services to Native Americans. How does access to 
mental health services at IHS affect FEMA's recommendation to provide 
crisis counseling services in Tribal communities?
    Answer. States, territories and federally recognized Tribes can 
apply for grant funding for the FEMA Crisis Counseling Assistance and 
Training Program (CCP) in the wake of presidentially declared major 
disasters which have received a designation for Individual Assistance. 
As a supplemental program, CCP services are meant to supplement and not 
supplant or replace existing behavioral health (mental health and 
substance abuse) services. As part of the application, the grantee is 
asked to describe State/Tribal and local mental health services and 
explain why they cannot meet the disaster-related mental health needs 
caused or aggravated by the disaster. Once FEMA determines that the 
disaster overwhelmed the existing behavioral health capacity (including 
IHS capacity), the State/territory/Tribe may receive CCP grant funding.

    Question 6. Since the enactment of the Tribal Stafford Act, tribes 
have made twenty requests and the President has declared eight 
disasters in response.
    Describe each request and the basis for FEMA's recommendation to 
approve or deny those requests.
    Answer. The President has sole discretion to approve emergency and 
major disaster declarations. For every request, in making a 
recommendation to the President, FEMA considers the Joint Preliminary 
Damage Assessment provided by the Tribe, whether the Tribal resources 
have been overwhelmed, and the extent to which Stafford Act programs 
can address the needs created by the event and provide supplemental 
assistance.

    Question 7. In its 2014 testimony, FEMA stated that it received 
eight direct Tribal requests and declared six major disasters. That is 
a seventy-five percent success rate. As of January 31, 2017, FEMA 
received twenty Tribal requests, and the President declared eight major 
disasters. That brings the overall success rate to forty percent since 
the enactment of the Tribal Stafford Act.
    Please explain the markedly lower rate of declared disasters since 
FEMA testified in 2014.
    Are states denied disaster assistance at the same or a similar rate 
as Tribes? Please explain and address any reasons for the disparity.
    Answer. Many Indian Tribal governments (Tribal governments) are 
less experienced than states with the disaster declaration process and 
Stafford Act programs. This has resulted in some Tribes seeking 
assistance for events that are either not eligible or cannot be readily 
addressed by Stafford Act programs (i.e. impacts to fishing, impacts of 
drought, erosion, etc.). There was a 47 percent approval rate for 
Tribal declarations and 83 percent for state declarations (some of 
which included Tribal entities as recipients or sub recipients) during 
the period of January 29, 2013 and January 31, 2017. We are continuing 
our outreach and education efforts to ensure that all Tribal 
governments have a comprehensive understanding of Stafford Act 
declarations.
    In addition, requests received prior to publication of the Tribal 
Declarations Pilot Guidance, were processed using the guidance for 
state declaration requests, including a $1 million threshold for Public 
Assistance and a per capita indicator. After three rounds of 
consultation with Tribes, FEMA published the Tribal Declarations Pilot 
Guidance, which provides unique factors, including a new minimum damage 
amount of $250,000, for FEMA to consider that better take into account 
the unique circumstances of Tribal governments.

    Question 8. FEMA noted in its 2014 testimony that the regulations 
may be ill-suited to tribal requests because the regulations were 
designed for states.
    How does the Pilot Guidance account for the unique status of 
tribes?
    Does FEMA consider the federal trust responsibility when 
recommending a decision to the President? If so, how?
    Answer. FEMA acknowledges the trust responsibility of the federal 
government to federally recognized Tribal governments as established by 
specific treaties, court decisions, statutes, executive orders, 
regulations, and policies. Specifically, in recognition of this trust 
responsibility and as prescribed by Congress in the Sandy Recovery 
Improvement Act, FEMA is implementing the Tribal Declarations Pilot 
Guidance (the Guidance) for direct emergency and disaster declarations.
    The Tribal Declarations Pilot Guidance provides new, specially 
designed, criteria for evaluating an Indian Tribal government's request 
for a disaster declaration, and takes into account the unique 
conditions that affect Tribal nations. This criteria was developed as a 
result of extensive consultation and listening sessions with Tribes.
    For example, the Public Assistance minimum damage amount of 
$250,000 for Tribal declarations (versus $1 million minimum for 
states). Absent extraordinary circumstances, when preliminary damage 
assessments indicate $250,000 in PA-eligible damage and costs, FEMA 
will then look holistically at the impacts to and capabilities of a 
Tribal nation to determine the need for supplemental federal 
assistance.
    In addition, the guidance provides for eligibility under the 
Individuals and Households Program for enrolled Tribal members, and at 
the request of the Tribal nation, members of the Tribal community who 
are not enrolled Tribal members.

    Question 9. FEMA testified in 2014 that it developed the Emergency 
Management Institute Tribal curriculum to help Tribes with their 
emergency response activities.
    Has the curriculum evolved since then, if so, how?
    Answer. Yes the curriculum continues evolving by including emerging 
policies, highlighting best practices and discussing case studies. 
Recently, FEMA's Office of Response and Recovery delivered a 
presentation discussing the Tribal Declarations Guidance and provided 
an informational briefing, fact sheet, and frequently asked questions 
to each student. During the consultation period, FEMA staff utilized 
the course presentations as an opportunity to conduct consultation on 
the Declaration Guidance.

    Question 10. Has FEMA updated the curriculum to include the Pilot 
Guidance?
    Answer. Yes. Immediately after passage of the Sandy Recovery 
Improvement Act of 2013, the Tribal Curriculum course deliveries 
included a presentation segment for the Tribal Declaration Guidance. 
The presentation explained FEMA's implementation plan for the 
authority. In addition, the students received the presentation, fact 
sheets, and frequently asked questions. Additionally, these documents 
were used outside of the course delivery materials for consultation 
during the development of implementation guidance.
    Since the Pilot Period commenced on January 10, 2017, the Emergency 
Management Institute initiated the development of appropriate training 
material to be incorporated into the Tribal Curriculum courses, and is 
currently assisting in the development of other complementary training 
material to be delivered by FEMA Regional Offices. In addition, 
Emergency Management Institute is developing Tribal Declaration 
reusable learning object content to be made open source available to 
the whole community for inclusion in other training.
    The Center for Domestic Preparedness (CDP) has a lasting commitment 
to Tribal Nations training. As part of an ongoing outreach effort, CDP 
hosted 157 Tribal students from 41 Tribes enrolled in five different 
training programs during the CDP 2017 Tribal Nations Training Week, 
March 20-24, 2017. This is the second annual Tribal Nations Training 
Week which has proven to be a highly successful outreach tool focused 
on specific Tribal training needs. CDP invited members of the National 
Domestic Preparedness Consortium, Rural Domestic Preparedness 
Consortium, and the Emergency Management Institute to make short 
presentations during the week. The week culminated with a fully 
operational mass casualty exercise featuring a multi-disciplinary 
response to a simulated disaster.
    Thus far in FY17, CDP has trained 266 Tribal Nations students for a 
total of 483 course completions which is 5.8 percent of the resident 
training population.

    Question 11. Preparing a disaster declaration request is resource-
intensive, and resources often get stretched thin during emergency 
response.
    What type of technical assistance does FEMA provide to Tribes while 
preparing their declaration requests?
    Does FEMA provide sample documents that would give Tribal officials 
an idea of what an ideal request would look like?
    Answer. Before, during, and after disaster FEMA provides technical 
assistance and trainings to Indian Tribal governments (Tribal 
governments) on various administrative requirements for Stafford Act 
disaster assistance, including Preliminary Damage Assessments, 
administrative plans, mitigation plans, and grants management.
    On March 21, 2017, a Cover Letter Template for Tribal governments 
was posted to www.fema.gov to assist Tribal governments in submitting 
declaration requests which meet the criteria outlined in the Tribal 
Declarations Pilot Guidance.
    Each FEMA region has a Regional Tribal Liaison that works with the 
Tribes on requests for technical assistance, and can provide Regional 
resources prior to disasters to answer questions and guide them through 
the disaster declaration process. Both the region and HQ Tribal staff 
have facilitated many meetings with Tribal officials to discuss areas 
of concern and questions they may have on disaster programs and 
resources.

    Question 12. The Pilot Guidance stresses the importance of having 
emergency plans, mitigation plans, and administrative plans prepared in 
advance of disaster events.
    Please explain how tribes may successfully develop each plan and 
describe any best practices for developing each type of plan.
    Tribes have described preparation of these plans as both time and 
resource intensive. Please provide specifics on how FEMA provides 
technical assistance to assist tribes in preparing each type of plan.
    Answer. At the request of Indian Tribal governments (Tribal 
governments), training and technical assistance can be provided in a 
variety of ways, including training in-person (field delivered or in-
residence at FEMA's Emergency Management Institute), or remote, and 
online, for developing a Tribal Mitigation Plan, Public Assistance 
Administrative Plan, Hazard Mitigation Administrative Plan, Tribal 
Administrative Plan and how to complete the Other Needs Assistance 
Option Selection form. FEMA encourages Tribal officials to contact 
their Regional Tribal Liaison or FEMA Regional Recovery and Mitigation 
Planning staff to request technical assistance, if needed. We are also 
working with Tribes to develop other resources that can assist them in 
meeting the planning requirements, such as the Tribal Mitigation 
Planning Guidance (described below) which is now in consultation.
Other Needs Assistance Administrative Option Selection form and Tribal 
        Administrative Plan
    Prior to assistance being provided, FEMA must have a current, 
approved Other Needs Assistance (ONA) Administrative Option Selection 
form and Tribal Administrative Plan (TAP), if applicable, on file. The 
ONA Administrative Option Selection form is a standard FEMA form where 
the Tribal government elects which entity will administer ONA (FEMA, 
Tribe, or a joint effort) and establishes assistance limits for 
specific ONA items and maximum award amounts for transportation, 
funeral, and child care assistance. In situations where the Tribal 
government elects to administer ONA jointly with FEMA or by itself, the 
Tribal government must also submit an Administrative Plan, which 
outlines the procedures that the Tribal government will use to 
administer assistance. FEMA can assist in this decisionmaking and 
provide technical assistance in the development of these plans.
    FEMA Regional staff are the best point of contact for Tribal 
leaders when filling out their ONA forms or in developing a TAP. Many 
regions are currently conducting outreach to Tribal governments to 
assist them in navigating the ONA process.
Tribal Mitigation Plan
    It is important that Tribes begin the process of developing or 
updating a mitigation plan, as far in advance as possible as the 
process can require longer than a year and possibly more than two years 
if the Tribal government seeks to fund the plan with a grant. 
Information on potentially available planning grants can be found on 
FEMA's Hazard Mitigation Assistance website.
    The steps involved in developing a mitigation plan include:

        1.  Organization of resources--this includes the formation of 
        the planning team and other partnerships and technical 
        resources needed to move through the key planning steps. Some 
        Tribes may have the capability and capacity to do this on their 
        own. Others may choose to work with a consultant. Regardless, a 
        strong Tribal planning team and process is the key to a 
        successful mitigation program.

        2.  Assessment of risk--identification of the potential hazards 
        that could affect the Tribal area, and the people, property and 
        other assets, that are potentially vulnerable to these hazards.

        3.  Development of a mitigation strategy--the mitigation 
        strategy is the heart of the plan. Based on the findings of the 
        risk assessment, the Tribal government develops a course of 
        action, including goals and actions to address the risks. This 
        includes the prioritization of potential actions based on the 
        Tribal government's capabilities, (existing plans, programs, 
        personnel, funding and other factors).

        4.  Implementation, plan monitoring and plan updates: The 
        Tribal government can bring the mitigation plan to life in a 
        variety of ways, from implementing specific mitigation projects 
        to integrating the mitigation actions into existing Tribal 
        government programs and initiatives. It is important for the 
        plan to remain current and relevant with respect to risk and 
        Tribal capabilities. Periodic evaluations to assess changing 
        risks and priorities will enable the Tribal government to 
        ensure the plan continues to meet the Tribe's needs, and help 
        the Tribe prepare for a potential disaster.

    Tribal governments can find mitigation planning resources online, 
including the Tribal Hazard Mitigation Planning Guidance, which 
includes some best practices. Regions can assist Tribes by connecting 
them with examples and some best practices and examples of Tribal 
mitigation plans can be found in the Homeland Security Digital Library, 
by using search terms ``Tribal mitigation plan.''
Hazard Mitigation Administrative Plans
    The Hazard Mitigation Administrative Plan is a procedural guide 
that details how the Tribal government will administer the HMGP. The 
Tribal government must have a current administrative plan approved by 
the appropriate FEMA Regional Administrator before receiving HMGP 
funds. The administrative plan may take any form including a chapter 
within a comprehensive Tribal mitigation program strategy. The Tribal 
government may forward an administrative plan to FEMA for approval at 
any time prior to or immediately after the request for a disaster 
declaration. An approved plan is a prerequisite of receiving HMGP funds 
and is used by FEMA in determining approval for and the amount of each 
grant.
    The Administrative Plan, must establish procedures to guide the 
following 13 activities, and FEMA will review the information provided 
to ensure proper documentation of each activity:

        1.Identify and notify potential sub applicants of the 
        availability of HMGP funding.

        2.Provide, as applicable, potential sub applicants with 
        information on the application process, program eligibility, 
        and deadlines.

        3.Determine sub applicant eligibility, as applicable.

        4.Provide information for EHP and floodplain management 
        reviews.

        5.Process requests for advances of funds and reimbursements.

        6.Monitor and evaluate the progress and completion of funded 
        mitigation activities.

        7.Review and approve cost overruns.

        8.Process appeals.

        9.Provide technical assistance as required to sub recipients, 
        as applicable.

        10.Comply with the administrative requirements of 44 CFR Part 
        206 and 2 CFR Part 200.

        11.Comply with audit requirements of 2 CFR Part 200 Subpart F.

        12.Provide quarterly progress reports to FEMA on funded 
        mitigation activities.

    FEMA Mitigation regularly holds mitigation training courses at the 
Emergency Management Institute and disaster operation offices (JFO); 
provides updates and general information to national audiences at 
various stakeholder engagement meetings (e.g., National Emergency 
Management Association, HMA Workshop); and hosts Regional meetings 
between FEMA Regions and Regional partners. Additionally, FEMA has 
written guidance in the Hazard Mitigation Assistance Guidance 
(published February 27, 2015) on the requirement and development of an 
administrative plan.
Emergency Plans
    FEMA's Tribal Curriculum course Emergency Management Framework for 
Tribal Governments does provide training in the development of 
emergency plans. Since the development of the course in 2012, FEMA has 
provided examples of Tribal Emergency Plans to course participants.

    Question 13. Please describe how the National Disaster Recovery 
Framework functions, including which agencies participate in the 
Framework, and the resources it may provide to a Tribe that requests 
Federal disaster recovery assistance.
    Are Tribes and States eligible for the same number and types of 
assistance under the Framework? Please list and describe any assistance 
that is unavailable to Tribes and any assistance only available to 
Tribes as sub-recipients of a State.
    Answer. The National Disaster Recovery Framework (NDRF) provides 
the architecture for organizing agencies to better leverage existing 
Federal programs and support, de-conflict Federally support activities, 
and maximize the impact of Federal funds and nongovernmental resources 
to meet Tribal and survivor needs. The Framework does not provide 
additional funding or resources beyond existing Federal authorities.
    In coordination with the Federal Coordinating Officer (FCO), the 
State or Tribal Coordinating Officer, and the community impacted, the 
Federal Disaster Recovery Coordinator (FDRC) will determine which 
additional Federal agencies are needed to support the recovery mission. 
The FDRC helps to serve as a single representative to facilitate 
identification of needs and provision of recovery resources from a 
variety of resources. In collaboration with the FDRC, six Federal 
departments and agencies coordinate Recovery Support Functions for core 
sectors: Economic; Health and Social Services; Housing; Infrastructure 
Systems; Natural and Cultural Resources; and Community Planning and 
Capacity Building. Additional information about the Recovery Support 
Functions, including lists of the participating agencies are available 
on FEMA's website: https://www.fema.gov/recovery-support-functions.
    The FDRC will convene Federal recovery interagency and 
nongovernmental partners as a coordinating body in support of the 
impacted community, Tribe, or State's recovery goals. Depending on the 
disaster requirements, agency representatives will deploy directly to 
the Joint Field Office and the area of impact to provide technical 
assistance to the Federal operation, assess the impacts, and develop a 
joint strategy for supporting the Tribe's and/or State's recovery 
goals. As part of the strategic solutions process, agencies identify 
programs under their own authorities that may be appropriate to assist 
the recovery goals of the impacted community.
    Note that some Federal program authorities are exclusive to Tribal 
governments, and some programs are only accessible through a State 
government. For instance, US Department of Housing and Urban 
Development, Environmental Protection Agency, Indian Health Service, 
and US Department of Transportation all have Tribal-specific programs 
for which a State would not qualify. Similarly, some non-disaster State 
pass-through programs, such as US Department of Health and Human 
Services Low Income Home Energy Assistance Program, may be accessible 
if the Tribe applies to the State. Some agency authorities distinguish 
between States and Tribes, others do not.

    Question 14. Please describe how the Recovery Support Strategy 
relates to the Framework and how Tribal views are meaningfully 
considered during the Strategy's development.
    Answer. Under the National Disaster Recovery Framework, the Federal 
Disaster Recovery Coordinator and activated Recovery Support Functions 
develop a Recovery Support Strategy (RSS) after a disaster to organize 
Federal support and resources to assist with local recovery priorities 
and goals. The FDRC and partner agencies engage local leaders and 
stakeholders to better understand Tribal, community, and State recovery 
goals. In essence, the RSS is a road map that determines how existing 
and available Federal resources will be used to support local recovery 
needs and priorities.
    For the Community of Galena, Alaska (which has both a city council 
and a Tribal council [Louden Alaska Native Village]), residents were 
invited to participate in two structured goal-setting sessions. 
Representatives from Federal and State agencies met directly with the 
community members to talk through issues, feasibility, funding options, 
and lessons learned from other communities, in order to help with the 
identification of possible projects. The representatives from Galena 
identified about 200 possible projects, then selected about 30 priority 
projects. These projects became the basis of the RSS (copy available 
upon request). Participating Federal agencies included US Army Corps of 
Engineers; National Renewable Energy Lab (US Department of Energy); 
Economic Development Administration (US Department of Commerce); FEMA; 
and US Department of Housing and Urban Development. State and Federal 
agencies collectively agreed to honor the project descriptions as 
written and not modify them without agreement from the community.
    For the Oglala Sioux Tribe (OST), the OST President identified the 
over-arching priorities of ``Health, Housing, and Roads'' for the 
Federal recovery strategic focus. The OST President designated the 
Tribal Coordinating Officer to work directly with the Federal partners, 
and designated specific Tribal department directors to work with the 
Federal agencies. The RSS for OST (copy available upon request) evolved 
from direct interaction between the Tribal leadership and Tribal 
department heads and the Federal agency representatives. Participating 
Federal agencies included US Department of Housing and Urban 
Development; US Department of Agriculture-Rural Development; US Army 
Corps of Engineers; US Department of Energy--National Renewable Energy 
Lab; and US Department of Transportation--Federal Highways 
Administration.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                              Alex Amparo
    Question 1. What is FEMA's plan for continuing dialogue with Indian 
Tribes during the Tribal declaration pilot program?
    Answer. In coordination with FEMA's National Tribal Affairs Advisor 
and FEMA Regional Tribal Liaisons, FEMA Recovery Directorate and Office 
of External Affairs Tribal Partners Branch hosted two national 
webinars/conference calls on the final version of the Tribal 
Declarations Pilot Guidance, which included information on the process 
and requirements for requesting Stafford Act declarations.
    In addition, FEMA continues to work with Regional Tribal Liaisons 
on nationwide Tribal engagement surrounding declarations and the 
Guidance and to provide briefings at national and Regional Tribal 
conferences and for individual Tribes, when desired.

    Question 2. How is the formula for tribal declarations different 
from state declarations?
    What methods did FEMA use to determine the formula?
    Answer. The Tribal Declarations Pilot Guidance provides new, 
specially designed, criteria for evaluating a Tribal government's 
request for a disaster declaration and takes into account the unique 
conditions which affect Tribal nations. This criteria was developed as 
a result of extensive consultation and listening sessions with Tribes.
    For example, the Public Assistance (PA) minimum damage amount of 
$250,000 for Tribal declarations (versus $1 million dollar minimum for 
States). Absent extraordinary circumstances, when preliminary damage 
assessments indicate $250,000 in PA-eligible damage and costs, FEMA 
will then look holistically at the impacts to and capabilities of a 
Tribal nation to determine the need for supplemental Federal 
assistance.
    Immediately following the first round of consultation for the 
guidance, FEMA proposed a figure of $1 million dollar requirement for 
PA for Tribes with populations greater than 10,000 members. For Tribes 
that had less than 10,000 members, they had to meet at $500,000 dollar 
requirement. For the second round of consultation, $300,000 was the 
proposed figure. During the final round of consultation, FEMA received 
feedback that the $300,000 was still too high for many Tribes, so the 
final Tribal Declarations Pilot Guidance provides a minimum damage 
amount of $250,000. The $250,000 PA minimum damage amount is based on 
the average administrative cost to FEMA to administer a Tribal 
declaration.
    In addition, the guidance provides for eligibility under the 
Individuals and Households Program for enrolled Tribal members, and at 
the request of the Tribal nation, members of the Tribal community who 
are not enrolled Tribal members.
    It is also important to remember that the Guidance is only a pilot 
and may be adjusted following the end of the pilot period.

    Question 3. Given the change in the administration, how is FEMA 
working to make sure that all of the past accomplishments in setting up 
the pilot program are continuing to be used as a foundation for new 
goals?
    Answer. FEMA's commitment to implementing the Tribal authorities 
under the Sandy Recovery Improvement Act (SRIA) has resulted in a 
culture shift in the way we work with Tribal governments and officials, 
and we engage with them on policies and actions that have substantial 
direct effects on Tribes. Throughout our programs, we have instilled a 
practice of ensuring that Tribes are considered when we develop policy 
and that we consult when impacts are identified. These practices are in 
support of FEMA's established Tribal Policy and Tribal Consultation 
Policy that provide the framework for FEMA Tribal relations and Tribal 
consultation, and guides how the agency delivers technical assistance 
and programs tailored to the unique circumstances of Tribal 
communities. These two policies are revised every four years to reflect 
new authorities and polices. The Agency created a Tribal Integration 
Group (TIG) focused on internal coordination and collaboration on 
Tribal engagement and consultation efforts across all program areas.
    In the development of the Tribal Declarations Pilot Guidance, FEMA 
sought input from Tribal governments during three consultation periods, 
and received and adjudicated hundreds of comments to develop the Pilot 
Guidance. The Tribal consultation methods and Tribal engagement used 
and learned during the development of the Tribal Declarations Pilot 
Guidance, serve as best practices for consultations going forward. The 
success of the effort solidified the consultation policy as the 
foundation for how to conduct Tribal consultation moving forward. The 
National Tribal Affairs Advisor, the Office of External Affairs' Tribal 
Partners Branch, the Regional Tribal Liaisons, and the TIG will 
continue to work closely with all FEMA programmatic offices to ensure 
FEMA policies take into consideration the unique needs and capabilities 
of Tribes, that programs are adhering to the Tribal Policy, and that 
the agency is fully utilizing the Tribal Consultation Policy.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. James Lankford to 
                              Alex Amparo
    Question 1. Under current law (42 USC 5122), the owner or operator 
of private nonprofit facilities damaged by major disasters may receive 
financial assistance for the repair, restoration, reconstruction, or 
replacement of the facility and related expenses. Private nonprofit 
facilities currently are defined, in part, to include ''any private 
nonprofit facility that provides essential services of a governmental 
nature to the general public;'' however, houses of worship are 
currently excluded.
    During the hearing I asked whether there are any properties or 
structures that are excluded from a disaster declaration, and in 
particular, houses of worship. You indicated that sacred lands and 
houses of worship, would be included as Tribal infrastructure. What if 
that Tribal infrastructure is used for sectarian instruction or 
worship? In that case, could that house of worship be a recipient of 
FEMA disaster aid?
    Answer. Even if the house of worship or other Tribal infrastructure 
is used for American Indian traditional religious and cultural 
practices, or for any other kind of sectarian instruction or worship, 
the facility may still be an eligible recipient of FEMA assistance.

                                  [all]
</pre></body></html>
